<html>
<title> - THE ROLE OF CYBER INSURANCE IN RISK MANAGEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


             THE ROLE OF CYBER INSURANCE IN RISK MANAGEMENT

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                        PROTECTION, AND SECURITY
                              TECHNOLOGIES

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2016

                               __________

                           Serial No. 114-61

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
22-625 PDF                       WASHINGTON : 2016                       
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  
                             
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                
                                
                                ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                   John Dickhaus, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     4
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               Witnesses

Mr. Matthew McCabe, Senior Vice President, Network Security and 
  Data Privacy, Marsh FINRPO:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Mr. Adam W. Hamm, Commissioner, National Association of Insurance 
  Commissioners:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Daniel Nutkis, Chief Executive Officer, Health Information 
  Trust Alliance:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Thomas Michael Finan, Chief Strategy Officer, Ark Network 
  Security Solutions:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Statement of Brian E. Finch, Esq., Partner, Pillsbury Winthrop 
    Shaw Pittman LLP.............................................     5

 
             THE ROLE OF CYBER INSURANCE IN RISK MANAGEMENT

                              ----------                              


                        Tuesday, March 22, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:14 a.m., in 
Room 311, Cannon House Office Building, Hon. John Ratcliffe 
[Chairman of the subcommittee] presiding.
    Present: Representatives Ratcliffe, Perry, Clawson, 
Donovan, Richmond, and Langevin.
    Mr. Ratcliffe. Good morning, everyone. Before we begin 
today, I want to take a moment and recognize a moment of 
silence to remember the victims of the terror attacks this 
morning in Brussels.
    Thank you.
    You know, attacks like these really cement the need for 
this committee to move forward with urgency on all fronts to 
try and prevent and protect Americans from attacks like these 
here in the United States.
    With that, the Committee on Homeland Security, the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order. The subcommittee 
today is meeting to examine the potential opportunities to 
promote the adoption of cyber best practices and more effective 
management of cyber risks through cyber insurance. I now 
recognize myself for an opening statement.
    The House Homeland Security Committee, Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security 
Technology meets today to hear from key stakeholders about the 
role of cyber insurance in managing risk. Just yesterday, the 
Bipartisan Policy Center came out with a publication on the 
room for growth in this market and the barriers that it faces. 
Specifically, today we hope to hear about the potential for 
cyber insurance to be used to drive companies of all sizes to 
improve their resiliency against cyber attacks and develop a 
more effective risk management strategy, thereby leading to a 
safer internet for all Americans.
    The cyber insurance market is in its infancy, but it is 
easy to envision its vast potential. Just as the process of 
obtaining home insurance can incentivize homeowners to invest 
in strong locks, smoke detectors, and security alarms, the same 
could be true for companies seeking to obtain cyber insurance. 
It is for that reason that I look forward to hearing from our 
witnesses today on the current state of the cyber insurance 
market and what can be done to develop and to improve and to 
expand the availability of cyber insurance in the future.
    As news of the recent hacks and breaches and data 
exfiltrations demonstrates, cyber vulnerabilities impact every 
American and cause significant concern. The interconnectedness 
of society exposes everyone to these risks now. The 
interconnectedness of society--the breaches at Home Depot, 
Target, and JPMorgan Chase are just a few examples of the cyber 
incidents that have significantly impacted Americans every day.
    According to the World Economic Forum's 2015 Global Risk 
Report, technological risks in the form of data fraud, cyber 
attacks, or infrastructure breakdowns, rank in the top 10 of 
all risks facing the global economy. In light of these risks 
and their enormous significance to individuals, families, and 
companies, we really need to be exploring market-driven methods 
for improving the security of companies that store all of our 
personal information. I believe cyber insurance to be one such 
solution.
    The very process of considering, applying for, and 
maintaining cyber insurance requires entities to assess the 
security of their systems and to examine their own weaknesses 
and vulnerabilities. The process is constructive, not only for 
obtaining a fairly-priced policy, but also as a means of 
improving the company's security in the process. Obtaining and 
maintaining cyber insurance may be a market-driven means of 
effecting a rising tide to lift all boats, thereby advancing 
the security of our entire Nation.
    Today, those acquiring cyber insurance largely consist of 
leading companies that have the most to lose. These market 
leaders have looked down the road and recognize that the best 
way to mitigate their own vulnerabilities is to ensure against 
as many cyber risks as possible. However, we need to explore 
ways for this marketplace to expand to create a wide array of 
diverse, affordable products that will benefit small and 
medium-sized entities as well.
    The Department of Homeland Security's Cyber Incident Data 
and Analysis Working Group, or CIDAWG, has facilitated 
discussions with relevant stakeholders, including many of the 
witnesses today, to find ways to further expand the cyber 
insurance market's ability to address emerging risk areas. The 
DHS working group has examined the potential value of creating 
a cyber incident data repository to foster the voluntary 
sharing of data about breaches, business interruption events, 
and industrial control system attacks to aid mitigation and 
risk-transfer approaches. Additionally, they are looking to 
develop new cyber risk scenarios, models, and simulations to 
promote the understanding about how a cyber attack might 
cascade across infrastructure sections.
    Last, they are examining ways to assist organizations of 
all sizes in better prioritizing and managing their top cyber 
risks.
    Over the next several decades, I hope to see a matured 
insurance ecosystem that incentivizes companies of all sizes to 
adopt stronger cybersecurity best practices and more effective 
management of cyber risks against bad actors in cyber space. We 
look forward to your perspectives on these efforts and what the 
private sector is doing to make it easier for Americans to more 
effectively manage cyber risks.
    As Chairman of this subcommittee, I am committed to 
ensuring that legislators help facilitate, but not mandate, 
solutions to better protect our private-sector networks against 
cyber adversaries. As I see it, the private sector has always 
led the way with respect to innovation and investment in this 
space, and we have an obligation to continue leaning heavily on 
this wealth of front-line expertise.
    I have no doubt that this is only the beginning of our 
conversation on cyber insurance. This market is growing and it 
is new. I'm hopeful that we will continue to find ways to 
facilitate the healthy, market-driven maturation of the cyber 
insurance market as an effective means of improving our 
Nation's cybersecurity posture.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                             March 22, 2016
    The House Homeland Security Committee, Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security Technologies 
meets today to hear from key stakeholders about the role of cyber 
insurance in managing risk. Just yesterday the Bipartisan Policy Center 
came out with a publication on the room for growth in this market and 
the barriers that it faces. Specifically, we hope to hear about the 
potential for cyber insurance to be used to drive companies of all 
sizes to improve their resiliency against cyber attacks and develop a 
more effective risk management strategy, leading to a safer internet 
for all Americans.
    The cyber insurance market is in its infancy. But it's easy to 
envision its vast potential. Just as the process of obtaining home 
insurance can incentivize homeowners to invest in strong locks, smoke 
detectors, and security alarms, the same could be true for companies 
seeking to obtain cyber insurance. It is for that reason that I look 
forward to hearing from the witnesses today on the current state of the 
cyber insurance market, and what can be done to develop, improve, and 
expand the availability of cyber insurance in the future.
    As news of the recent hacks, breaches, and data exfiltrations 
demonstrates, cyber vulnerabilities impact every American and cause 
significant concern. The interconnectedness of society exposes everyone 
to these risks. The breaches at Home Depot, Target, and JPMorgan Chase 
are just a few examples of cyber incidents that significantly impacted 
everyday Americans. Further, according to the World Economic Forum's 
2015 Global Risk Report, technological risks in the form of data fraud, 
cyber attacks, or infrastructure breakdown rank in the top 10 of all 
risks facing the global economy.
    In light of these risks and their enormous significance to 
individuals, families, and companies, we must explore market-driven 
methods for improving the security of the companies that store our 
personal information.
    I believe cyber insurance may be one such solution. The very 
process of considering, applying for, and maintaining cyber insurance 
requires entities to assess the security of their systems and examine 
their own weaknesses and vulnerabilities. This process is constructive, 
not only for obtaining a fairly-priced policy, but also as a means of 
improving the company's security in the process. Obtaining and 
maintaining cyber insurance may be a market-driven means of enabling 
``all boats to rise,'' thereby advancing the security of the Nation.
    Today, those acquiring cyber insurance largely consist of leading 
companies that have the most to lose. These market leaders have looked 
down the road and recognized the best way to mitigate their own 
vulnerabilities is to insure against as many cyber risks as possible. 
However, we need to explore ways for this marketplace to expand to 
create a wide array of diverse, affordable products that will also 
benefit small and medium-sized entities.
    The Department of Homeland Security's Cyber Incident Data and 
Analysis Working Group has facilitated discussions with relevant 
stakeholders, including many of the witnesses today, to find ways to 
further expand the cyber insurance market's ability to address emerging 
risk areas. The DHS working group has examined the potential value of 
creating a cyber incident data repository to foster the voluntary 
sharing of data about breaches, business interruption events, and 
industrial control system attacks to aid risk mitigation and risk 
transfer approaches. Additionally, they are looking to develop new 
cyber risk scenarios, models, and simulations to promote the 
understanding about how a cyber attack might cascade across 
infrastructure sections. Lastly, they are examining ways to assist 
organizations of all sizes in better prioritizing and managing their 
top cyber risks.
    Over the next several decades, I hope to see a matured cyber 
insurance ecosystem that incentivizes companies of all sizes to adopt 
stronger cybersecurity best practices and more effective management of 
cyber risks against bad actors in cyber space.
    We look forward to hearing your perspectives on these efforts and 
what the private sector is doing to make it easier for Americans to 
more effectively manage cyber risks. As Chairman of this subcommittee, 
I'm committed to ensuring that legislators help facilitate--but not 
mandate--solutions to better protect our private-sector networks 
against cyber adversaries. As I see it, the private sector has always 
led the way with respect to innovation and investment in this space, 
and we have an obligation to continue leaning heavily on this wealth of 
front-line expertise.
    I have no doubt that this is only the beginning of the conversation 
on cyber insurance. This market is growing and it is new. I am hopeful 
that we will continue to find ways to facilitate the healthy, market-
driven maturation of the cyber insurance market as an effective means 
of improving our Nation's cybersecurity posture.

    Mr. Ratcliffe. The Chair now recognizes the Ranking 
Minority Member of our subcommittee, the gentleman from 
Louisiana, my friend, Mr. Richmond, for any opening statement 
that he may have.
    Mr. Richmond. Thank you, Mr. Chairman, for holding this 
hearing today on cyber insurance. I want to thank the witnesses 
for taking their time and their testimony today.
    Unfortunately, business and Government in America and 
across the world have seen increased levels and frequencies of 
cyber attacks, and the rapidly accelerating sophistication of 
state-sponsored and privately-organized cyber criminals.
    Over the past few years, this subcommittee has conducted 
Government oversight and produced legislative initiatives and 
worked diligently to provide the Department of Homeland 
Security and other Federal agencies with the tools it needs to 
protect our systems and our databases, and encourage the 
participation of private industry, both in the critical 
infrastructure sector and for information sharing.
    Today, we are going to hear from private industry and a 
representative of their State insurance regulatory 
commissioners about cyber insurance. While the full committee, 
and particularly this subcommittee, has no oversight or 
legislative jurisdiction over the cyber insurance activities of 
those actors and sectors, we do have an interest in how they 
are doing. The statistics are familiar to us all.
    The percentage of U.S. critical infrastructure assets owned 
by private-sector firms is estimated to be somewhere in the 
neighborhood of 85 percent. The way these assets are operated 
and managed has vastly changed over the last few decades, due 
to the impact of the digital revolution related to computer-
based information systems. These changes have increased the 
efficiency associated with using our infrastructure assets. The 
digital revolution, however, has also created serious risks to 
the Nation's critical infrastructure due to actual and 
potential cybersecurity breaches.
    As noted by President Obama in his Executive Order on 
cybersecurity on February 12, 2013, he stated: Repeated cyber 
intrusions into critical infrastructure demonstrate the need 
for improved cybersecurity. The cyber threat to critical 
infrastructure continues to grow and represents one of the most 
serious National security challenges we must confront.
    Last year set a high bar for the size and scope of data 
breaches, led by the theft of over 20 million Government 
background checks, and with that high bar, an increasing 
interest in how State and local governments and businesses, 
large and small, can manage their risk and vulnerabilities when 
they operate in cyber space. For example, recently, on a panel 
on Lessons Learned From the Real-World Chief Information 
Security Officers, the University of Virginia's Randy Marchany 
explained that the increased and sophistication of the level of 
today's cyber threats forces him to assume that hackers already 
have access to his network, and the best he can do is to 
monitor for when the latent threat becomes active.
    With that said, let's cut to the chase. What would a cyber 
insurance policy look like if an experienced chief information 
security officer of a company or municipal government came to 
your insurance agency with the proposition that it is likely 
that his systems had already been hacked and the malware was 
likely dormant, but he wanted to purchase insurance from you as 
to mitigation and repercussions? Or to complicate things even 
more, and to introduce the well-known moral hazard 
consideration that accompanies many insurance policies, what if 
a hypothetical chief information security officer knew he had 
been hacked, but wasn't telling you or anyone else, and he knew 
or suspected that the hacker intrusion was lying dormant and 
would activate at some later date?
    I am not the first to pose these kinds of questions, and 
these are questions I am sure all of us have had, if you 
contemplate the issue of cyber insurance at all. But the worst-
case scenarios, going forward, cyber insurance can play a key 
role in helping businesses, especially small and mid-size 
businesses, to assess their cybersecurity posture and 
readiness, and their ability to be resilient and recover from 
anticipated cyber threats and attacks.
    We are engaged in an exceptionally complex and nuanced 
policy arena. I am especially interested to see how the States 
will handle the regulatory responsibilities that surround cyber 
insurance and how the States can serve as incubators for 
innovative solutions to the National, international, and 
industry-wide challenge of cybersecurity for our Nation's 
businesses and Government agencies.
    Mr. Chairman, before I yield back, I would ask unanimous 
consent to submit for the record a white paper on cyber 
insurance from the George Washington University Center for 
Cyber and Homeland Security. The author is Brian E. Finch, a 
senior fellow, and member of the Center's Cybersecurity Task 
Force. Mr. Finch is a senior partner at Pillsbury, Winthrop, 
Shaw, and Pittman, and also serves as a senior adviser to the 
Homeland Security and Defense Business Council.
    Mr. Ratcliffe. Without objection.
    [The information follows:]
          Submitted For the Record by Hon. Cedric L. Richmond
  Statement of Brian E. Finch, Esq., Partner, Pillsbury Winthrop Shaw 
                              Pittman LLP
                             March 22, 2016
    Chairman Ratcliffe, Ranking Member Richmond, distinguished Members 
of the subcommittee, thank you for allowing me to submit a statement 
for the record addressing the role cyber insurance can play in risk 
management.
    My name is Brian Finch and I am here today testifying in my 
capacity as a partner with the law firm of Pillsbury Winthrop Shaw 
Pittman LLP. I am also a senior fellow with The George Washington 
University Center for Cyber and Homeland Security, where I am a member 
of the Center's Cybersecurity Task Force, a senior advisor to the 
Homeland Security and Defense Business Council, and a member of the 
National Center for Spectator Sport Safety and Security's Advisory 
Board.
    As I have previously noted to Members of this subcommittee, 
cybersecurity, cybersecurity best practices, and risk management 
processes are critical to our Nation's economic security and physical 
safety. Members of this subcommittee know all too well that our cyber 
enemies are numerous, growing, and increasingly sophisticated. If we 
have learned anything over the past few years with respect to the 
threat posed by our cyber enemies, it is that even our most advanced 
cyber defenses cannot keep up with the sophistication and innovation of 
cyber attack methodologies. The result is a steady if not increasing 
``cyber gap'' between defense and offense.
    In that vein, we must confront the fact that too much focus has 
been given to ``eliminating'' the cyber threat posed to America. 
Indeed, no company has an ``Enterprise Risk Eliminator,'' so as the 
title of this hearing implies, our efforts should be concentrated on 
managing cyber risk.
    I will leave it to the Members of this subcommittee and the 
witnesses at the hearing to discuss critical facts related to what 
cyber insurance as it currently exists has to offer, including with 
respect to the amount of insurance that is available to anyone company, 
much less in total.
    What I would like to bring to the attention of the subcommittee 
instead is that today's cyber insurance products are focused on the 
wrong end of the problem. Cyber insurers, like many others, have 
correctly assessed that cyber attacks will successfully strike a 
company at some point. However, these cyber insurance models suffer a 
fundamental disconnect in that they operate under the assumption that 
cyber attacks will be sporadic and will rarely succeed.
    The reality is that cyber attacks are a constant threat, seeking to 
penetrate information systems and technologies from every direction and 
through every possible entry. I would argue therefore that the 
insurance market has been using incorrect models and assumptions when 
developing policies for use in cyber risk management.
    Rather than viewing cyber attacks as infrequent events like a fire 
or natural disaster, I believe cyber risk management would be best 
served if insurers looked towards policies that use a personal health 
model. That means cyber insurers should look to establish an 
infrastructure that supports constant care and promotes wellness, not 
merely reimbursement for periodic losses. In my mind, it follows then 
that cyber insurers should develop cyber policies using a health 
maintenance organization or ``HMO'' model.
    Under that model, the insurer's goal will be to promote the 
``right'' kinds of claims--ones that encourage healthy behavior. This 
model addresses the reality that inevitably some sort of cyber disease 
will work its way into the blood stream by supporting interventional 
care that prevents minor scratches from developing into a serious 
infection.
    Companies would gain access to the cyber HMO by paying monthly 
premiums along with associated ``co-pays'', ``deductibles'', and 
similar expenses typically associated with a health insurance plan.
    That cyber HMO plan would give the insured access to a vast network 
of cybersecurity vendors and professionals at discounted rates that 
could be called upon in the event of a problem (the ``co-pays'' and 
``co-insurance'' equivalents).
    The cyber HMO plans would also provide low-cost or even free access 
to basic ``cyber hygiene'' care, such as routine diagnostic examination 
of information technology systems, perimeter defense systems, and other 
basic defense systems (the annual physical and low-cost or free vaccine 
equivalents).
    More ``advanced'' defense systems could be subject to a higher co-
pay and deductible, and companies could even chose to go ``out of 
network'' if they choose, but only by shouldering more of the cost.
    I firmly believe that this subcommittee should look for ways to 
support the concept of a ``cyber HMO,'' as a model that actively 
promotes and rewards healthy cyber behavior--a Gordian knot that no 
carrier has been able to untie yet using traditional insurance models. 
That's a critical piece of the cybersecurity puzzle, as the challenge 
has been how to get companies to engage in effective cybersecurity 
rather than the most easily accessible form of it.
    Best of all, using the cyber HMO model addresses a presumed 
obstacle to cyber insurance: A lack of actuarial data. Through its mere 
existence, the cyber HMO will gather the data needed to assess and 
underwrite costs. This enables cyber benefits to be more finely tuned, 
benefitting its members and society writ large.
    At the very least, this approach has the benefit of trying to solve 
the problem at hand, not simply forcing a square peg into a round hole. 
If nothing else, maybe this idea will generate more discussion around 
trying to take proactive security measures.
    One other model I would like to present to the Members of the 
subcommittee is the notion of creating cyber ``pools'' of insurance. 
Through risk pooling, companies can work together to purchase more 
insurance than might otherwise be available to them while also 
establishing hard liability limits and sharing cyber defense resources.
    Risk pooling mechanisms come in a number of forms, including ``risk 
purchasing'' and ``risk retention'' groups. Those groups allow 
collections of companies (usually similarly situated in terms of 
industry sector) to jointly purchase or create insurance coverage that 
would otherwise be unavailable or excessively expensive.
    Such pools have been around for some time, and discussions with 
respect to utilizing them in the context of cyber threats are picking 
up steam. Where companies can take true advantage of these mechanisms 
is to layer in additional risk mitigation tools such as threat 
information sharing and statutory liability protection. Combining those 
aspects could lead to a very powerful collective defense tool.
    Here's how it can work:
    (1) A group of similarly-situated companies agree to form a risk 
        purchasing or retention group in order to obtain cybersecurity 
        insurance.
    (2) The companies agree to use certain security standards or 
        technologies (for instance SANS 20 controls, ``detonation 
        chambers'', information sharing via dedicated ``private 
        clouds'', the recent National Institutes of Standards and 
        Technologies voluntary cybersecurity framework, etc.)
    (3) The companies then pool their resources either to jointly 
        purchase an existing cyber insurance policy or to create a pool 
        of insurance that they would collectively maintain.
    (4) As part of the agreement, any company that fails to adhere to 
        the security standards will be asked to leave the group at the 
        next renewal period.
    This proposal can potentially be extremely valuable to the most 
vulnerable companies, namely small and medium-sized businesses that do 
not have the resources to create their own robust cyber defenses. By 
pooling both their financial resources to buy additional insurance but 
also their technical capabilities to create a common defense, this 
concept will work to strengthen the bonds between businesses and allow 
them to collectively respond to and mitigate otherwise devastating 
cyber attacks.
    Further, this arrangement also potentially allows more of the 
insurance funds to be used for ``first party'' losses the company has 
directly suffered (damaged equipment, lost data, business interruption, 
etc.) rather than losses suffered by third parties.
    The pool arrangement also enables companies to collaborate and 
establish a baseline of security that each would commit to maintaining, 
and also allows for regular reviews to determine what security controls 
need to be adjusted. The companies could even work with public/private 
partnership resources within the Department of Homeland Security and 
other Federal agencies such as NIST to help them refine their programs 
and policies in order to achieve a greater cyber ``maturity'' level 
than they might have otherwise reached.
    Another benefit of this pool concept is that the insured group can 
take advantage of the cyber information-sharing platform recently 
created by the Cyber Information Sharing Act. The pools would be prime 
candidates to benefit from that platform, and would likewise make 
excellent candidates to serve as information-sharing and analysis 
organizations, or ``ISAOs,'' within the CISA framework.
    The pooling concept gives companies an excellent opportunity to 
take charge of their security profile, and do so in a way that both 
mitigates the likelihood of a successful attack as well as increase 
resources to respond to or mitigate losses. Further, these pools can 
serve as an excellent collective effort that can more fully take 
advantage ofthe public/private partnership benefits offered through the 
CISA legislation and the ISAO concept.
                               conclusion
    Thank you for the opportunity to present my statement to the 
subcommittee. I am happy to answer any question you might have 
regarding my thoughts.

    Mr. Richmond. With that, I yield back.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             March 22, 2016
    Unfortunately, businesses and government in America, and across the 
world, are seeing increased levels and frequencies of cyber attacks and 
the rapidly accelerating sophistication of state-sponsored and 
privately-organized cyber criminals. Over the past few years, this 
subcommittee has conducted Government oversight and produced 
legislative initiatives and worked diligently to provide the Department 
of Homeland Security and other Federal agencies, with the tools it 
needs to protect our systems and databases, and encourage the 
participation of private industry both in the critical infrastructure 
sector and for information sharing.
    Today, we are going to hear from private industry, and a 
representative of their State insurance regulatory Commissioners about 
cyber insurance. While, the full committee, and particularly this 
subcommittee, has no oversight or legislative jurisdiction over the 
cyber insurance activities of these actors and sectors, we do have an 
interest in how they are doing.
    The statistics are familiar to us all, the percentage of U.S. 
critical infrastructure assets owned by private-sector firms is 
estimated to be somewhere in the neighborhood of 85 percent. The way 
these assets are operated and managed has vastly changed over the last 
few decades due to the impact of the digital revolution related to 
computer-based information systems. These changes have increased the 
efficiency associated with using our infrastructure assets.
    The digital revolution, however, has also created serious risks to 
the Nation's critical infrastructure due to actual and potential 
cybersecurity breaches. As noted by President Obama in his Executive 
Order on Cybersecurity, February 12, 2013: Repeated cyber intrusions 
into critical infrastructure demonstrate the need for improved 
cybersecurity. The cyber threat to critical infrastructure continues to 
grow and represents one of the most serious National security 
challenges we must confront.
    Last year set a high bar for the size and scope of data breaches, 
led by the theft of over 20 million Government background checks, and 
with that high bar, an increasing interest in how State and local 
governments, and businesses large and small, can manage their risks and 
vulnerabilities when they operate in cyber space.
    For example, recently on a panel on ``lessons learned'' from real-
world chief information security officers, the University of Virginia's 
Randy Marchany explained that the increased and sophistication of the 
level of today's cyber threats forces him to assume that hackers 
already have access to his network, and the best he can do is to 
monitor for when the latent threat becomes active.
    With that said, let's cut to the chase--what would a cyber 
insurance policy look like if an experienced chief information security 
officer, or CISO, of a company or municipal government came to your 
insurance company with the proposition that it is likely that his 
systems had already been hacked and the malware was likely dormant, but 
he wanted to purchase insurance from you as to mitigation and 
repercussions?
    Or, to complicate things even more, and introduce the well-known 
``moral hazard'' consideration that accompanies any insurance policy--
what if a hypothetical CISO knew he had been hacked, but wasn't telling 
you or anyone else, and he knew or suspected the hack or intrusion was 
lying dormant and would activate at some later date? I am not the first 
to pose these kinds of questions, and these are questions I am sure all 
of us have had, if you contemplate the issue of cyber insurance at all.
    But these are worst-case scenarios. Going forward, cyber insurance 
can play a key role in helping businesses, especially small and mid-
sized business, to assess their cybersecurity posture and readiness, 
and their ability to be resilient and recover from anticipated cyber 
threats and attacks. We are engaged in an exceptionally complex and 
nuanced policy arena. I am especially interested to see how the States 
will handle the regulatory responsibilities that surround cyber 
insurance, and how the States can serve as incubators for innovative 
solutions to the National, international, and industry-wide challenge 
of cybersecurity for our Nation's businesses and Government agencies.

    Mr. Ratcliffe. I thank the gentleman. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 25, 2016
    Cyber insurance is a way to share risks so when a cyber data breach 
event occurs, the insured company receives a payment to compensate for 
the losses.
    The analysis of data breach claims helps cyber insurance companies 
estimate the probability of a breach and the likely losses that can be 
covered.
    A cyber insurance company might use this experience to recommend 
cybersecurity improvements to companies it insures.
    Some suggest that cyber insurance companies can gather detailed, 
technical information on breaches and use this knowledge to prevent 
future breaches at other clients.
    Others have had the idea to create insurance ``pools'' for use by 
smaller and mid-sized businesses, in certain sectors, which could then 
collectively purchase a cyber insurance policy. There are lots of 
innovative ideas on the table.
    Over the past 7 years, President Obama has been very involved on 
the issue of protecting critical infrastructure. In 2013, the President 
issued Executive Order 13636, ``Improving Critical Infrastructure 
Cybersecurity''.
    The Executive Order called for, what we now know as, the NIST 
Cybersecurity Framework, developed by the Department of Commerce's 
National Institute of Standards and Technology.
    It is a set of voluntary industry standards and best practices to 
help companies and entities manage cybersecurity risks, and it has 
become a central tenant of the idea that cybersecurity insurance might 
be possible in the real world.
    We have been told the cybersecurity insurance market is growing at 
30% a year by some estimates, and brokers and underwriters alike agree 
that mid-size and small businesses are the next sector of business to 
see a wide-spread adoption of cyber insurance.
    I know I hear from many of the main-street businesses in my 
District when I hold meetings on cyber--that many are struggling with 
their cybersecurity efforts. They lack the resources, the time, and the 
expertise to address this issue.
    And I imagine they will have a more difficult time qualifying for 
cyber insurance. I look forward to the testimony today on this complex 
and necessary component of cyber and information security.

    Mr. Ratcliffe. We are pleased to have with us today an 
incredibly distinguished panel of witnesses on this very 
important topic. Mr. Matthew McCabe is the senior vice 
president for network security and data privacy at Marsh 
FINRPO. Welcome, and as a former counsel to the Committee on 
Homeland Security, maybe I should say welcome back.
    Commissioner Adam Hamm is the North Dakota insurance 
commissioner and is testifying on behalf of the National 
Association of Insurance Commissioners. Commissioner Hamm, 
thank you for being with us here today.
    Mr. Daniel Nutkis is the chief executive officer for the 
Health Information Trust Alliance. We appreciate you coming all 
the way from the great State of Texas to be with us this 
morning.
    Last but not least, Mr. Tom Finan is the chief strategy 
officer at Ark Network Security Solutions, and is also a former 
Department of Homeland Security official. We welcome you back 
as well.
    I now ask the witnesses to stand and raise your right hand 
so that I can swear you in to testify.
    [Witnesses sworn.]
    Mr. Ratcliffe. Let the record reflect that the witnesses 
have answered in the affirmative. The witnesses' full written 
statements will appear in the record.
    The Chair now recognizes Mr. McCabe for his opening 
statement.

STATEMENT OF MATTHEW P. McCABE, SENIOR VICE PRESIDENT, NETWORK 
            SECURITY AND DATA PRIVACY, MARSH FINRPO

    Mr. McCabe. Thank you. Good morning, Chairman Ratcliffe, 
Ranking Member Richmond, and Members of the subcommittee. My 
name is Matthew McCabe, and I am a senior adviser for Marsh, 
which is the global leader in risk management and insurance 
brokering.
    Every day around the world, Marsh advisers work with 
clients to quantify and manage risk. Today, our prayers are 
certainly with our colleagues in Brussels and, of course, with 
all the citizenry in the wake of those terrible attacks.
    My testimony today focuses on how Marsh helps clients 
manage risk through cyber insurance. Broadly stated, there are 
3 core components. First, a policy can pay costs to respond to 
a cyber incident. These can be items like forensics, data 
breach notification and credit monitoring, restoring corrupted 
data, or even a cyber extortion demand.
    Second, cyber insurance will cover fees and damages that 
arise from litigation triggered by a cyber incident. Third, 
cyber insurance reimburses revenue lost or expenses incurred 
from disruption of network operations. However, the benefits of 
coverage are not simply financial. Cyber insurance actually can 
strengthen an organization's cyber preparedness.
    As a threshold matter, as the Chairman recognized, applying 
for coverage requires an assessment. Underwriters scrutinize 
practices such as perimeter defenses, incident response plans, 
patching software, access privileges, and network monitoring 
before issuing a policy. In that assessment, we will help 
determine the premium which incentivizes better practices. Once 
coverage is bound, tethered to that coverage are vendor 
services such as threat assessment and vulnerability scanning.
    Most prominently, cyber insurance supports incident 
response plans by providing services like forensics, legal 
analysis, fraud mitigation, and crisis management. This feature 
can be especially valuable for small and mid-size businesses 
that may lack resources to carry their own incident response 
plans. Notably, research indicates that nearly 60 percent of 
cyber attacks target small and mid-size businesses.
    Interest in cyber insurance is robust and climbing. In 
2015, the number of U.S.-based Marsh clients purchasing cyber 
insurance increased 27 percent when compared to 2014. That 27 
percent number follows a 32 percent increase in the prior year, 
and a 21 percent increase in the year before. Currently, cyber 
insurance purchasing remains dominated by industries that 
aggregate customer data, personally identifiable information.
    But purchasing is climbing for industries with less data, 
but which have a significant exposure for network disruptions. 
Typical industries that can serve as examples would be electric 
utilities and manufacturers. So this trend signals that more 
companies see a growing exposure from cyber physical systems 
where operational technology is remotely controlled via an 
internet connection.
    Marsh and McLennan recently considered this exposure in a 
report titled ``Cyber Resiliency in the Fourth Industrial 
Revolution,'' which it co-authored with FireEye and Hewlett 
Packard Enterprise. The report examines how cyber threats are 
morphing into a realm of physical assets and critical 
infrastructure. With the escalation of attacks and increased 
connectivity of devices, there is a clear need for critical 
infrastructure companies to become more resilient to cyber 
attacks.
    The report concludes that one key for building cyber 
resiliency is to have distinct cyber risk advisers, such as 
threat intelligence, forensic assessment, systems architecture, 
and risk transfer, provide an integrated strategy. They will 
ask questions as what are your most critical assets? Who are 
the bad actors targeting your network? What does your on-line 
activity signal to the hackers out there? The responses to 
those questions will yield data, and that data should inform 
every asset of cyber risk management.
    For the same rationale, Marsh has participated and supports 
the DHS Cyber Incident Data Analysis Working Group. The 
insurance industry is data-intensive, and advising clients 
relies on our ability to model the likelihood and severity of 
events. In fact, the strength of our industry is its emergence 
as a leader in cyber incident analysis. So we believe the 
repository could have several uses, including strengthening 
underwriting, developing new products to close gaps in 
coverage, and could support metrics around information sharing 
and detecting threats.
    In conclusion, cyber risk management depends on our ability 
to quantify risk and provide analytics that support action 
items. Thank you, and I look forward to answering any questions 
that you might have.
    [The prepared statement of Mr. McCabe follows:]
                Prepared Statement of Matthew P. McCabe
                             March 22, 2016
                              introduction
    Good morning Chairman Ratcliffe, Ranking Member Richmond, and 
Members of the subcommittee. My name is Matthew McCabe, and I am a 
senior advisory specialist in the field of cyber insurance broking for 
Marsh. My testimony today will focus on defining the product of cyber 
insurance, explaining how it supports resiliency to defend against 
cyber threats, and how analysis of data related to cyber incidents 
supports the industry. I am grateful for the opportunity to participate 
in this important hearing.
    Marsh & McLennan operates through 4 market-leading brands--Marsh, 
Guy Carpenter, Mercer, and Oliver Wyman. Each organization provides 
advice to clients across an array of industries in the areas of risk, 
strategy, and human capital. As the leading insurance broker in the 
world, Marsh has a unique perspective on the cyber insurance market.
    Marsh's role is to work with clients to analyze their risk 
exposures and, where appropriate, help our clients implement solutions 
to address and mitigate the financial impact of a cyber incident.
    Over the past decade, our Nation has witnessed an astonishing 
evolution of cyber risk that continues to grow in size and 
sophistication. It was aptly described by President Barack Obama as 
``one of the great paradoxes of our Information Age--the very 
technologies that empower us to do great good can also be used by 
adversaries to inflict great harm.'' Technically-sophisticated actors 
have the opportunity to carry out attacks at a relatively low cost, and 
they do so repeatedly by frustrating attribution or enjoying the 
protection of a jurisdiction where the ability to extradite or 
prosecute bad actors remains evasive.
    That paradigm resulted in an epic crime wave, with enormous 
consequences for our clients. Companies have lost hundreds of millions 
of customer records, suffered rampant pilfering of intellectual 
property and endured the theft of funds and sensitive financial 
information.
    Many metaphors have been invoked to describe this phenomenon. Is 
this an epidemic? Is this the modern-day risk of catastrophic fire? My 
preference is piracy. Simply put, a new generation of raiders committed 
to plunder have taken to the virtual high seas. These raiders may enjoy 
tacit or direct support of a nation-state. Victimized merchants expect 
their government to address this menace and are considering how they 
can pursue their own recourse. However, even that metaphor has come 
full circle. This week, security experts found that actual pirates have 
been hacking into a global shipping company in order to target specific 
ships with the most valuable cargo.\1\ There is no company or industry 
that is not affected by cyber risk.
---------------------------------------------------------------------------
    \1\ See [sic] (accessible at http://www.verizonenterprise.com/
resources/reports/rp_data-breach-digest_xg_en.pdf).
---------------------------------------------------------------------------
    For this committee, the paramount concern is that cyber threats 
have now unquestionably escalated into a genuine threat against the 
homeland. The growing prominence of cyber physical systems--where 
operational technology connections become increasingly accessible 
through the internet--gives rise to an escalated risk to the control 
physical processes. The threat to U.S. critical infrastructure arising 
from the exposure of cyber physical systems has quickly morphed from 
speculative, to rumored, and now actual events. Recent examples include 
the 2013 attack against a New York dam, last year's attack against a 
Ukrainian electric utility and railways, and purportedly a recent 
threat against a South Korean rail system. In short, the stakes in this 
game have risen quickly.
    Marsh & McLennan recently considered this challenge in a report 
titled ``Cyber Resiliency in the Fourth Industrial Revolution'', which 
it co-authored with FireEye and Hewlett Packard Enterprises. (See 
Appendix A.) As noted in the report, with most experts predicting that 
the number of internet-connected devices will eclipse 30 million by 
2020, there will be a broad expansion of the attack surface against 
critical infrastructure. Realizing that this boom in connectivity must 
be met with a better approach for securing the backbone systems that 
support critical infrastructure, the authors considered the challenge 
of how the private sector can develop greater resiliency in the face of 
cyber threats.
    Our conclusion is that cyber-risk advisers must come together to 
create a unified approach for building cyber resiliency of these 
systems. Much like the NIST Framework presents a process for end-to-end 
assessment, the different disciplines of cyber-risk management must 
coalesce into an integrated solution. Each stage of cyber risk advising 
should inform and reinforce the others. Thus, cyber insurance should 
not be viewed as a stand-alone solution; it is instead a key component 
of cyber-risk management around which experts can coalesce and which 
can provide strong market incentives to pursue greater security.
    The many benefits of cyber insurance are apparent to the private 
sector. The number of Marsh U.S.-based clients purchasing stand-alone 
cyber insurance increased 27% in 2015 compared with 2014. That followed 
a 32% increase of clients purchasing cyber insurance in 2014 over 2013, 
and a 21% increase from 2012 to 2013. This purchasing is supported by 
more than 50 carriers from around the world that potentially can 
provide more than $500 million in capacity.
    Because of the incessant stream of data breaches that have targeted 
U.S. companies, purchasing is dominated by industries that aggregate 
customer data, such as retailers, financial institutions, and health 
care providers. However, take-up rates are climbing for industries with 
small amounts of data but that are exposed to significant risk of 
network outage, such as electric utilities or manufacturers. In short, 
the sharp increase in cyber insurance purchasing has increased rapidly 
and continues its growth as a vital part of risk-based cybersecurity 
management strategies.
                      the value of cyber insurance
    Broadly stated, there are 3 core components of cyber insurance. 
First, cyber insurance will reimburse the costs that a company pays to 
respond to a cyber incident. These expenses may come in the form of 
complying with requirements to notify and protect affected individuals 
in the wake of a data breach; paying the expense to recreate corrupted 
or destroyed data; or even paying the demand of an extortionist. 
Second, cyber insurance covers the fees and damages that a company may 
pay in response to litigation resulting from a cyber incident. Third, 
cyber insurance reimburses revenues lost or expenses incurred due to a 
disruption related to a cyber incident.
    However, the benefits of cyber insurance extend far beyond 
reimbursement for financial loss. Cyber insurance has evolved into a 
product that serves as a key touchpoint for an organization to assess 
its cyber practices and coordinate its incident response plan to cyber 
incidents. The Department of Commerce Internet Policy Task Force 
recently commented that cybersecurity insurance is potentially an 
``effective, market-driven way'' of increasing cybersecurity in the 
private sector.
    For demonstrative purposes, the benefits attached to cyber 
insurance can be explained in the context of the NIST Cybersecurity 
Framework by mapping the components of a policy to the five 
cybersecurity domains proposed in the Framework: Assessment, 
prevention, detection, response, and recover.
    As a threshold matter, the very act of applying for insurance 
forces an assessment of the applicant's cyber practices. The 
underwriting process will scrutinize a company's technical defenses, 
incident response plan, procedures for patching software, policies for 
limiting access to data and systems, monitoring of the vendor network 
and more. Applying for cyber insurance is therefore an important risk 
mitigation tool. Further, carriers assess the applicant's security 
practices and provide premiums based on their interpretation. Thus, 
cyber insurance premiums provide an important incentive that drives 
behavioral change in the marketplace.
    Once a cyber insurance program is implemented, the insured can 
avail themselves of services and solutions to further mitigate cyber 
risk and strengthen cyber hygiene. The insurance marketplace thereby 
enhances access to detection and mitigation solutions and the large 
network of vendors that provide threat intelligence, vulnerability 
scanning, system configuration analysis, and technology to block 
malicious signatures.
    Most prominently, cyber insurance can support an organization's 
incident response plans. In the example of a data breach, most cyber 
insurance policies provide the services needed to respond to breaches, 
including forensics to determine what customer records have been 
compromised, legal analysis of the insured's responsibilities, 
notification to affected individuals, and credit monitoring and 
restoration to protect its customers. A well-executed response plan 
will actually reduce the overall cost of a data breach and avoid many 
of the problems that may later surface in resulting litigation or 
regulatory scrutiny. These services can be especially valuable for 
small- and mid-size enterprises that will require a cyber incident 
response plan, but lack the resources to implement one on their own.
    In short, using market-driven incentives, cyber insurance serves to 
build greater resiliency within the private sector. This can be 
especially critical for small- and mid-size businesses that would 
experience a significant financial burden to retain and execute all of 
these services own their own. Notably, recent research indicates that 
as many as 60% of cyber attacks target small- and mid-size 
businesses.\2\ With cyber insurance, these businesses can rely on 
experienced cyber security vendors in the wake of a cyber incident and 
respond and recover more quickly from the incident.
---------------------------------------------------------------------------
    \2\ See Symantec Internet Security Report 2014 (accessible at 
http://www.symantec.com/content/en/us/enterprise/other_resources/b-
istr_main_report_v19_21291018.en-us.pdf).
---------------------------------------------------------------------------
                       the role of data analysis
    As this committee has recognized through its important work to pass 
legislation on the sharing of cyber threat indicators, enhanced 
information sharing between industry and Government is an important 
component of a comprehensive risk mitigation strategy. For this 
purpose, Marsh has participated in and supported the Department of 
Homeland Security's (DHS) Cyber Incident Data Analysis Working Group, 
and, prior to that, Cyber Insurance Workshops conducted by DHS.
    As the committee is aware, the insurance industry is data-
intensive. There are both internal and external drivers for strong 
modeling to enable more accurate forecasting for the likelihood and 
severity of events. As a rule of thumb, better data leads to better 
decisions. For this reason, Marsh has participated in the DHS working 
groups that have proposed the creation of a repository that would 
collect anonymized data to track cyber incidents.
    Importantly, the committee should not interpret the desire to 
collect more actuarial data or to strengthen modeling as an indication 
that the cyber insurance industry is currently without tether to a 
strong appreciation of the underlying risk. One strength of the cyber 
insurance industry is that the underwriting process generates data on 
threats, vulnerabilities, and potential consequences for each 
applicant. Indeed, the cyber insurance industry has risen to become a 
leader in incident analysis for informing trends in cyber threats and 
correlate best practices with the amount of loss.
    However, a centralized repository could offer several benefits to 
both Government and industry. As proposed, the data repository would 
provide a centralized platform to share the information that many 
companies retain about hacking activity.
    Making this data available centrally can inform analysis of long-
term trends for insight into the effectiveness of security practices. 
For example, companies, carriers, and regulators could potentially 
analyze whether certain security protocols or practices have 
effectively mitigated cyber risk. For example, Government and industry 
could undertake an analysis as to whether organizations that have 
implemented cyber practices using the NIST Framework have proven more 
resilient in withstanding cyber attacks. Further, in the wake of the 
recent passage of information-sharing legislation, Government, and 
industry, could explore whether the greater availability of cyber 
threat indicators has enabled organizations to fend off malevolent 
actors.
    From the perspective of Government, analyzing the successes and 
challenges related to cyber risk strategies could provide a basis for 
shaping future Federal policy. Increasingly, network systems tie 
together an ever broader and more sophisticated global supply chain, 
yielding greater complexity and more latent risk. Accordingly, any new 
requirement for protecting supply chains should be founded in data 
analysis and consider potential consequences of regulations on the 
marketplace and the likelihood for accomplishing intended security 
goals.
    From the perspective of the insurance industry, the greater 
availability of cyber incident data to strengthen underwriting may also 
facilitate market forces to address current and future risks, and 
eventually encourage further carrier participation. Better data could 
also enable the insurance industry to introduce solutions to close gaps 
in current coverages and to determine how to best to detect and 
mitigate future incidents, or to reduce incident response times and 
facilitate recovery.
    Thank you for allowing me to present this testimony. I am happy to 
take your questions.\3\
---------------------------------------------------------------------------
    \3\ Appendix to Marsh & McLennan Companies Testimony A. Report: 
``Cyber Resiliency in the Fourth Industrial Revolution'' is available 
at: http://info.resilientsystems.com/ponemon-institute-study-the-cyber-
resilient-organization-ppc?utm_campaign=CyberResiliencePonemonReport- 
&utm_source=google&utm_medium=cpc&gclid=CP3F2Lf61MsCFRNahgodl98LrA.

    Mr. Ratcliffe. Thank you, Mr. McCabe. The Chair now 
recognizes Commissioner Hamm for his opening statement.

 STATEMENT OF ADAM W. HAMM, COMMISSIONER, NATIONAL ASSOCIATION 
                   OF INSURANCE COMMISSIONERS

    Mr. Hamm. Good morning, Chairman Ratcliffe, Ranking Member 
Richmond, and Members of the committee. Thank you very much for 
the opportunity to testify today.
    So to begin, State insurance regulators are keenly aware of 
the potentially devastating effects that cyber attacks can 
have, and we have taken a number of steps to enhance data 
security expectations across the insurance sector. We 
understand the pressure these increased risks put on other 
industries, creating unprecedented demand for products to 
manage and mitigate some of their cybersecurity risks through 
insurance.
    Most businesses carry commercial insurance policies, but 
may not realize cybersecurity risks are not covered. To cover 
these unique risks, businesses need to purchase a special, 
customized cybersecurity policy. My written testimony details 
the structure of financial and market regulation for U.S. 
insurers writing these types of policies.
    Ours is a Nationally-coordinated, State-based system that 
relies on extensive peer review, communication, and 
collaboration among regulators to produce checks and balances 
in oversight, always with the fundamental tenet of protecting 
policy holders by ensuring that companies are solvent and can 
pay claims when they come due.
    When it comes to regulation, cybersecurity policies are 
scrutinized just as closely as other insurance contracts. Their 
complexity and new product language will present some novel 
issues, but policy forms and rates are still subject to review 
to ensure the contracts are reasonable and not contrary to 
State laws. We also have market conduct authorities to examine 
insurers and policies, as well as strong enforcement powers.
    Cybersecurity risk remains difficult for insurance 
underwriters to quantify, due in large part to a lack of 
actuarial data. Today, in the absence of that data, insurers 
compensate by pricing that relies on qualitative assessments of 
an applicant's operations, vendors, risk management procedures, 
and security culture. As a result, the policies for cyber risk 
tend to be more customized than others, and therefore more 
costly.
    From a regulatory perspective, we would like to see these 
qualitative assessments coupled with a more robust actuarial 
data system based on actual incident experience. As it is still 
developing, accurately assessing the exposure or the size of 
the cybersecurity insurance market is a work in progress. That 
is why the NAIC has developed a new mandatory data supplement. 
This supplement requires all insurance carriers, writing either 
identity theft insurance or cybersecurity insurance, to report 
on their claims, premiums, losses, expenses, and in-force 
policies in these areas.
    With this data, regulators will be able to more 
definitively report on the size of the market and identify 
trends that will inform whether more tailored regulation is 
necessary. As with any new requirement, we expect that the 
terminology and reporting will mature over time.
    State insurance regulators are also ramping up our efforts 
to tackle other cybersecurity issues and reduce risk in the 
insurance sector through a number of initiatives. In the past 
year, the NAIC has adopted 12 principles for effective 
cybersecurity, a roadmap for consumer cybersecurity 
protections, updated guidance for examiners regarding IT 
systems and protocols. Most recently, we exposed for public 
comment a new insurance data security model law. We have done 
all of this through the NAIC's open and transparent process, 
and we continue to welcome all stakeholder input on these 
projects.
    The expansion of cyber risks and the growth of the 
cybersecurity insurance market are a tremendous opportunity for 
the insurance sector to lead in the development of cyber 
hygiene across our National infrastructure. Insurance has a 
long history of driving both best practices and 
standardization. It creates economic incentives through the 
pricing of products, and the underwriting process can test risk 
management techniques and encourage policy holders to make 
their businesses more secure.
    As insurers develop more sophisticated tools for 
underwriting and pricing, State regulators will continue to 
monitor and study cybersecurity products, always remembering 
that our fundamental commitment is to ensuring that policy 
holders are protected and treated fairly by financially sound 
insurance companies.
    In conclusion, State insurance regulators remain 
extensively engaged to promote an optimal regulatory framework, 
and cybersecurity insurance is no exception. I want to thank 
you again, Chairman Ratcliffe, for the opportunity to testify 
today, and I look forward to answering your questions.
    [The prepared statement of Mr. Hamm follows:]
                   Prepared Statement of Adam W. Hamm
                             March 22, 2016
                              introduction
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee, thank you for the invitation to testify today. My name is 
Adam Hamm. I am the commissioner of the Insurance Department for the 
State of North Dakota and I present today's testimony on behalf of the 
National Association of Insurance Commissioners (NAIC).\1\ I am a past 
president of the NAIC, and I have served as the chair of the NAIC's 
Cybersecurity Task Force since its formation in 2014.\2\ On behalf of 
my fellow State insurance regulators, I appreciate the opportunity to 
offer our views and perspective on cybersecurity challenges facing our 
Nation and the role cybersecurity insurance can play in risk 
management.
---------------------------------------------------------------------------
    \1\ The NAIC is the United States standard-setting and regulatory 
support organization created and governed by the chief insurance 
regulators from the 50 States, the District of Columbia, and 5 U.S. 
territories. Through the NAIC, we establish standards and best 
practices, conduct peer review, and coordinate our regulatory 
oversight. NAIC members, together with the central resources of the 
NAIC, form the National system of State-based insurance regulation in 
the United States.
    \2\ Attachment A--NAIC Cybersecurity (EX) Task Force Membership 
List.
---------------------------------------------------------------------------
         the cyber threat landscape creates demand for coverage
    On one hand, threats to data privacy are not new for businesses, 
regulators, or the consumers we protect. Regulators and legislatures 
have required businesses to protect consumer data for decades. On the 
other hand, the modern size, scale, and methods of data collection, 
transmission, and storage all present new challenges. As society 
becomes more reliant on electronic communication and businesses collect 
and maintain ever more granular information about their customers in an 
effort to serve them better, the opportunity for bad actors to inflict 
damage on businesses and the public increases exponentially. Rather 
than walking into a bank, demanding bags of cash from a teller, and 
planning a speedy getaway, a modern thief can steal highly-sensitive 
personal health and financial data with a few quick keystrokes or a 
well disguised phishing attack from the comfort of his basement couch. 
Nation states also place great value on acquiring data to either better 
understand or disrupt U.S. markets, and are dedicating tremendous 
resources to such efforts.
    As these cyber threats continue to evolve, they will invariably 
affect consumers in all States and territories. State insurance 
regulators are keenly aware of the potential devastating effects cyber 
attacks can have on businesses and consumers, and we have taken a 
number of steps to enhance data security expectations across the 
insurance sector, including at our own departments of insurance and at 
the NAIC. We also understand the pressure these increased risks are 
putting on other industries, creating unprecedented demand for products 
that allow purchasers to manage and mitigate some of their 
cybersecurity risks through insurance. Whether attacks come from nation 
states, terrorists, criminals, hacktivists, external opportunists or 
company insiders, with each announcement of a system failure leading to 
a significant business loss, awareness grows, and companies will seek 
additional coverage for security breaches, business interruptions, 
reputational damage, theft of digital assets, customer notifications, 
regulatory compliance costs, and many more liabilities that arise from 
doing business in the modern connected universe.
    Most businesses carry and are familiar with their commercial 
insurance policies providing general liability coverage to protect the 
business from injury or property damage. What they may not realize is 
that most standard commercial lines policies do not cover many of the 
cyber risks mentioned above. To cover these unique cyber risks through 
insurance, businesses need to purchase a special cybersecurity policy.
    I want to urge some caution regarding the term ``cybersecurity 
policy'' because it can mean so many different things--while it is a 
useful short-hand for purposes of today's conversation, I want to 
remind the committee that until we see more standardization in the 
marketplace, a ``cybersecurity policy'' will really be defined by what 
triggers the particular policy and what types of coverage may or may 
not be included depending on the purchaser and insurer. Commercial 
insurance policies are contracts between 2 or more parties, subject to 
a certain amount of customization, so if you've seen 1 cybersecurity 
policy, you've seen exactly 1 cybersecurity policy.
    All these nuances mean securing a cybersecurity policy is not as 
simple as pulling something off the shelf and walking to the cash 
register. Insurers writing this coverage are justifiably interested in 
the risk-management techniques applied by the policy holder to protect 
its network and its assets. The more an insurer knows about a 
business's operations, structures, risks, history of cyber attacks, and 
security culture, the better it will be able to design a product that 
meets the client's need and satisfies regulators.
    insurance regulation in the united states--``cops on the beat''
    The U.S. insurance industry has been well-regulated at the State 
level for nearly 150 years. Every State has an insurance commissioner 
responsible for regulating that State's insurance market, and 
commissioners have been coming together to coordinate and streamline 
their activities through the NAIC since 1871. The North Dakota 
Insurance Department, which I lead, was established in 1889 and employs 
approximately 50 full-time staff members to serve policy holders across 
our State. It is our job to license companies and agents that sell 
products in our State, as well as to enforce the State insurance code 
with the primary mission of ensuring solvency and protecting policy 
holders, claimants, and beneficiaries, while also fostering an 
effective and efficient marketplace for insurance products. The 
strength of our State-based system became especially evident during the 
financial crisis--while hundreds of banks failed and people were forced 
from their homes, less than 20 insurers became insolvent and even then, 
policy holders were paid when their claims came due.
    Conceptually, insurance regulation in the United States is 
straightforward. Americans expect insurers to be financially solvent, 
and thus able to make good on the promises they have made. Americans 
also want insurers who treat policy holders and claimants fairly, 
paying claims when they come due. In practice, the regulation of an 
increasingly complex insurance industry facing constantly-changing 
risks and developing new products to meet risk-transfer demand becomes 
challenging very quickly. The U.S. State-based insurance regulatory 
system is unique in that it relies on an extensive system of peer 
review, communication, and collaboration to produce checks and balances 
in our regulatory oversight of the market. This, in combination with 
our risk-focused approach to financial and market conduct regulation, 
forms the foundation of our system for all insurance products in the 
United States, including the cybersecurity products we are here to 
discuss today.
    Treasury Deputy Secretary Sarah Bloom Raskin stated at an NAIC/CSIS 
event last fall that ``State insurance regulators are the cops on the 
beat when it comes to cybersecurity at insurance companies and the 
protection of sensitive information of applicants and policy holders.'' 
We take very seriously our responsibility to ensure the entities we 
regulate are both adequately protecting customer data and properly 
underwriting the products they sell, and we continue to convey the 
message to insurance company C-suites that cybersecurity is not an IT 
issue--it is an Enterprise Risk Management Issue, a board of directors 
issue, and ultimately a CEO issue.
                  regulation of cybersecurity policies
    Having discussed increasing demand for coverage, we can turn to the 
role my fellow insurance commissioners and I play as regulators of the 
product and its carriers. Let me start by putting you at ease: When it 
comes to regulation, cybersecurity policies are scrutinized just as 
rigorously as other insurance contracts. While they may be more complex 
than many existing coverages and new product language will present some 
novel issues, when insurers draft a cybersecurity policy, they are 
still required to file forms and rates subject to review by the State 
Department of Insurance. State insurance regulators review the language 
in the contracts to ensure they are reasonable and not contrary to 
State laws. We also review the pricing and evaluate the benefits we 
expect to find in such policies. State regulators also retain market 
conduct authorities with respect to examinations of these insurers and 
policies in order to protect policy holders by taking enforcement 
measures against bad actors.
    Insurance regulation involves front-end, on-going, and back-end 
monitoring of insurers, products, and insurance agents (or producers). 
The system's fundamental tenet is to protect policy holders by ensuring 
the solvency of the insurer and its ability to pay claims. Strict 
standards and keen financial oversight are critical components of our 
solvency framework. State regulators review insurers' material 
transactions for approval, restrict key activities, have explicit 
financial requirements, and monitor compliance and financial condition 
through various solvency surveillance and examination mechanisms, some 
of which we recently updated to incorporate cybersecurity controls. We 
can also take corrective action on insurers when necessary through a 
regulatory intervention process.
Financial Regulation
    Financial regulation is focused on preventing, detecting, and 
resolving potentially troubled insurers. Insurance regulators carefully 
monitor insurers' capital, surplus, and transactions on an on-going 
basis through financial analysis, reporting requirements, actuarial 
opinions, and cash flow testing. State insurance laws also restrict 
insurers' investments and impose capital and reserving requirements.
    The monitoring of insurers is done through both on-site 
examinations and analysis of detailed periodic insurer reporting and 
disclosures. Insurers are required to prepare comprehensive financial 
statements using the NAIC's Statutory Accounting Principles (SAP). SAP 
utilizes the framework established by Generally Accepted Accounting 
Principles (GAAP), but unlike GAAP which is primarily designed to 
provide key information to investors of public companies and uses a 
going-concern concept, SAP is specifically designed to assist 
regulators in monitoring the solvency of an insurer. The NAIC's 
Accounting Practices and Procedures Manual includes the entire 
codification of SAP and serves as the consistent baseline accounting 
requirement for all States. Each insurer's statutory financial 
statements are filed with the NAIC on a quarterly and annual basis and 
include a balance sheet, an income statement, and numerous required 
schedules and exhibits of additional detailed information.
    The NAIC serves as the central repository for an insurer's 
financial statement data, including running automated prioritization 
indicators and sophisticated analysis techniques enabling regulators 
around the country to have access to National-level data without the 
redundancy of reproducing this resource in every State. This 
centralized data and analysis capability has been cited by the IMF as 
world-leading.
    Cybersecurity risk remains difficult for insurance underwriters to 
quantify due in large part to a lack of actuarial data. This has 
potential implications for on-going regulation and the market for the 
product. If a product is priced too low, the insurer may not have the 
financial means to pay claims to the policy holder. If too high, few 
businesses and consumers can afford to purchase it, instead opting to 
effectively self-insure for cyber incidents, limiting the ability of 
the insurance sector to be used as a driver of best practices. Today, 
in the absence of such data, insurers compensate by pricing that relies 
on qualitative assessments of an applicant's risk management procedures 
and risk culture. As a result, policies for cyber risk tend to be more 
customized than policies for other risks, and, therefore, more costly. 
The type of business operation seeking coverage, the size and scope of 
operations, the number of customers, the presence on the web, the type 
of data collected, and how the data is stored will all be among the 
factors that dictate the scope and cost of cybersecurity coverage 
offered. From a regulatory perspective, though, we would like to see 
insurers couple these qualitative assessments with robust actuarial 
data based on actual incident experience.
    Prior to writing the policy, the insurer will want to see the 
business' disaster response plan and evaluate it with respect to 
network risk management, websites, physical assets, intellectual 
property, and possibly even relationships with third-party vendors. The 
insurer will be keenly interested in how employees, contractors, and 
customers are able to access data systems, how they are trained, and 
who key data owners are. At a minimum, the insurer will want to know 
about the types of antivirus and anti-malware software the business is 
using, the frequency of system and software updates performed by the 
business, and the performance of the firewalls the business is using.
Examination Protocols and Recent Updates
    Last year, the NAIC, through a joint project of the Cybersecurity 
Task Force and the IT Examination Working Group, undertook a complete 
review and update of existing IT examination standards for insurers. 
Prior to this year, regulatory reviews of an insurer's information 
technology involved a 6-step process for evaluating security controls 
under the COBIT 5 framework. Revisions for 2016 to further enhance 
examinations are based in part on the NIST framework ``set of 
activities'' to Identify, Protect, Detect, Respond, and Recover. 
Specific enhancements were made to the NAIC Financial Examiner's 
Handbook regarding reviews of insurer cybersecurity training and 
education programs, incident response plans, understanding 
cybersecurity roles and responsibilities, post-remediation analyses, 
consideration of third-party vendors, and how cybersecurity efforts are 
communicated to the Board of Directors.
    Also evolving are regulators' expectations of insurance company C-
suites--specifically chief risk officers and boards of directors. 
Regulators expect improved incident response practice exercises, 
training, communication of cyber risks between the board and 
management, and incorporation of cybersecurity into the Enterprise Risk 
Management processes. There is now an expectation that members of an 
insurer's board of directors will be able to describe how the company 
monitors, assesses, and responds to information-security risks.
Market Regulation
    Market regulation is focused on legal and fair treatment of 
consumers by regulation of product rates, policy forms, marketing, 
underwriting, settlement, and producer licensing. Market conduct 
examinations occur on a routine basis, but also can be triggered by 
complaints against an insurer. These exams review producer licensing 
issues, complaints, types of products sold by insurers and producers, 
producer sales practices, compliance with filed rating plans, claims 
handling and other market-related aspects of an insurer's operation. 
When violations are found, the insurance department makes 
recommendations to improve the insurer's operations and to bring the 
company into compliance with State law. In addition, an insurer or 
insurance producer may be subject to civil penalties or license 
suspension or revocation. To the extent that we see any of these issues 
arising from claims made on cybersecurity policies, regulators will be 
able to address them promptly through our suite of market conduct 
tools, and enhancements made to the Financial Examiner's Handbook are 
expected to be incorporated into the Market Conduct Examiner's Handbook 
this year.
Surplus Lines
    It is worth mentioning that some cybersecurity coverage is 
currently being written in the surplus lines markets. A surplus lines 
policy can be issued only in cases where the coverage cannot be found 
in traditional insurance markets because the coverage is unique or 
otherwise difficult to underwrite. Surplus lines insurers that are 
domiciled in a U.S. State are regulated by their State of domicile for 
financial solvency and market conduct. Surplus lines insurers domiciled 
outside the United States may apply for inclusion in the NAIC's 
Quarterly Listing of Alien Insurers. The carriers listed on the NAIC 
Quarterly Listing of Alien Insurers are subject to capital and surplus 
requirements, a requirement to maintain U.S. trust accounts, and 
character, trustworthiness, and integrity requirements.
    In addition, the insurance regulator of the State where the policy 
holder resides (the home State of the insured) has authority over the 
placement of the insurance by a surplus lines broker and enforces the 
requirements relating to the eligibility of the surplus lines carrier 
to write policies in that State. The insurance regulator can also 
potentially sanction the surplus lines broker, revoke their license, 
and hold them liable for the full amount of the policy.
    Like any other insurance market, as the cybersecurity market grows 
and more companies offer coverage, we anticipate the regulation will 
continue to evolve to meet the size and breadth of the market as well 
as the needs of consumers. State insurance regulators have a long 
history of carefully monitoring the emergence and innovation of new 
products and coverages, and tailoring regulation over time to ensure 
consumers are appropriately protected and policies are available.
       cybersecurity insurance market--new reporting requirements
    As a still nascent market for coverage, accurately assessing 
exposure or the size of the cybersecurity insurance market is a work in 
progress. To date, the only analyses of the cybersecurity market come 
from industry surveys and estimates that consistently place the size of 
the market in the neighborhood of $2-3 billion. In light of the 
uncertainty and many questions surrounding these products and the 
market, the NAIC developed the new Cybersecurity and Identify Theft 
Coverage Supplement \3\ for insurer financial statements to gather 
financial performance information about insurers writing cybersecurity 
coverage Nation-wide.
---------------------------------------------------------------------------
    \3\ Attachment B [This attachment is retained in the committee 
files].
---------------------------------------------------------------------------
    This mandatory new data supplement, to be attached to insurers' 
annual financial reports, requires that all insurance carriers writing 
either identity theft insurance or cybersecurity insurance report to 
the NAIC on their claims, premiums, losses, expenses, and in-force 
policies in these areas. The supplement requires separate reporting of 
both stand-alone policies and those that are part of a package policy. 
With this data, regulators will be able to more definitively report on 
the size of the market, and identify trends that will inform whether 
more tailored regulation is necessary. We will gladly submit a follow-
up report to the committee once we have received and analyzed the first 
batch of company filings, which are due April 1, and will keep all 
stakeholders apprised as we receive additional information. As with any 
new reporting requirement, we expect the terminology and reporting to 
mature over time as carriers better understand the specific information 
regulators need.
    Having this data will enable regulators to better understand the 
existing cybersecurity market, and also help us know what to look for 
as the market continues to grow, particularly as we see small and mid-
size carriers potentially writing these complex products.
              naic efforts beyond cybersecurity insurance
    The NAIC and State insurance regulators are also ramping up our 
efforts to tackle cybersecurity issues in the insurance sector well 
beyond cybersecurity insurance. We understand that the insurance 
industry is a particularly attractive target for hackers given the kind 
of data insurers and producers hold, and to that end we are engaged on 
a number of initiatives to reduce these risks.
    The NAIC adopted 12 Principles for Effective Cybersecurity: 
Insurance Regulatory Guidance in April 2015.\4\ The principles set 
forth the framework through which regulators will evaluate efforts by 
insurers, producers, and other regulated entities to protect consumer 
information entrusted to them.
---------------------------------------------------------------------------
    \4\ Attachment C [This attachment is retained in the committee 
files].
---------------------------------------------------------------------------
    We also adopted an NAIC Roadmap for Consumer Cybersecurity 
Protections in December 2015 to describe protections the NAIC believes 
consumers should be entitled to from insurance companies and agents 
when these entities collect, maintain, and use personal information and 
to guide our on-going efforts in developing formal regulatory guidance 
for insurance sector participants.\5\
---------------------------------------------------------------------------
    \5\ Attachment D [This attachment is retained in the committee 
files].
---------------------------------------------------------------------------
    Most recently, on March 3, the Cybersecurity Task Force exposed its 
new Insurance Data Security Model Law for public comment--written 
comments should be submitted by Wednesday, March 23, and feedback will 
be discussed at the open meeting of the task force on April 4 in New 
Orleans.\6\ The purpose and intent of the model law is to establish the 
exclusive standards for data security, investigation, and notification 
of a breach applicable to insurance licensees. It lays out definitions 
and expectations for insurance information security, breach response, 
and the role of the regulator. Recognizing that one size does not fit 
all, the model specifically allows for licensees to tailor their 
information security programs depending on the size, complexity, 
nature, and scope of activities, and sensitivity of consumer 
information to be protected. Perhaps most importantly, the model is 
intended to create certainty and predictability for insurance consumers 
and licensees as they plan, protect information, and respond in the 
difficult time immediately following a breach. We welcome all 
stakeholders' input as we continue the model's development through the 
open and transparent NAIC process.
---------------------------------------------------------------------------
    \6\ Attachment E [This attachment is retained in the committee 
files].
---------------------------------------------------------------------------
    Related to the NAIC's new model, we are aware Congress is 
considering a number of Federal Data Breach bills. While Congress held 
its first hearings on data breaches 20 years ago, there has been no 
successful legislation on the issue. Meanwhile, 47 States have acted to 
varying degrees, and some are on the fourth iteration of data security 
and breach notification laws. Some of these bills, including S. 961/
H.R. 2205, the Data Security Act, would lessen existing consumer 
protections in the insurance sector and could undermine our on-going 
and future efforts to respond to this very serious issue.
                coordinating with our federal colleagues
    Lastly, we understand that State insurance regulators are not alone 
in any of our efforts. We work collaboratively with other financial 
regulators, Congress, and the administration to identify specific 
threats and develop strategies to protect the U.S. financial 
infrastructure. State insurance regulators and NAIC staff are active 
members of the Treasury Department's Financial Banking and Information 
Infrastructure Committee (FBIIC), where I recently gave a presentation 
on insurance regulators' efforts in this space.
    We are also members of the Cybersecurity Forum for Independent and 
Executive Branch Regulators, where we meet with White House officials 
and other regulators to discuss best practices and common regulatory 
approaches to cybersecurity challenges across very different sectors of 
the U.S. economy. While we certainly do not have all the answers yet, 
rest assured that regulators are communicating and collectively focused 
on improving cybersecurity posture across our sectors.
                         current state of play
    I recently met with a group of insurance CEOs to discuss the NAIC's 
on-going efforts in data and cybersecurity. Several baseball metaphors 
were used in the meeting, so when the discussion pivoted to cyber 
insurance, I asked how far along they felt that market was in its 
development. One CEO said it was only the top of the first inning, and 
the lead-off batter has just grabbed a bat from the rack before the 
first pitch has even been thrown--the rest of the room nodded in 
agreement. We are on the first leg of a long race when it comes to 
cybersecurity insurance.
    There is no question that the expansion of cyber risks and the 
maturation of the cybersecurity insurance are a tremendous opportunity 
for the insurance sector to lead in the development of risk-reducing 
best practices and cyber hygiene across our National infrastructure. 
Insurance has a long history of driving best practices and 
standardization by creating economic incentives through the pricing of 
products, and the underwriting process can test the risk management 
techniques and efficacy of a policy holder making a broader range of 
businesses secure. As insurers develop more sophisticated tools for 
underwriting and pricing, State regulators will continue to monitor and 
study cybersecurity products, always remembering that our fundamental 
commitment is to ensuring that policy holders are protected and treated 
fairly, and that insurance companies are able to pay claims when they 
come due.
                               conclusion
    As insurance markets evolve, State insurance regulators remain 
extensively engaged with all relevant stakeholders to promote an 
optimal regulatory framework-cybersecurity insurance is no exception. 
As the cybersecurity insurance market develops, we remain committed to 
effective regulation and to making changes when necessary. State 
insurance regulators will embrace new challenges posed by a dynamic 
cybersecurity insurance market and we continue to believe that well-
regulated markets make for well-protected policy holders. Thank you 
again for the opportunity to be here on behalf of the NAIC, and I look 
forward to your questions.
              Attachment A.--Cybersecurity (EX) Task Force
Adam Hamm, Chair, North Dakota
Raymond G. Farmer, South Carolina
Jim L. Ridling, Alabama
Lori K. Wing-Heier, Alaska
Allen W. Kerr, Arkansas
Dave Jones, California
Marguerite Salazar, Colorado
Katharine L. Wade, Connecticut
Karen Weldin Stewart, Delaware
Stephen C. Taylor, District of Columbia
Kevin M. McCarty, Florida
Gordon I. Ito, Hawaii
Dean Cameron, Idaho
Anne Melissa Dowling, Illinois
Ken Selzer, Kansas
Brian Maynard, Kentucky
Eric A. Cioppa, Maine
Al Redmer, Jr., Maryland
Mike Hothman, Minnesota
John M. Huff, Missouri
Monica J. Lindeen, Montana
Bruce R. Ramge, Nebraska
Barbara Richardson, Nevada
Roger A. Sevigny, New Hampshire
Peter L. Hartt, New Jersey
John G. Franchini, New Mexico
Maria T. Vullo, New York
Wayne Goodwin, North Carolina
Mary Taylor, Ohio
John D. Doak, Oklahoma
Teresa D. Miller, Pennsylvania
Angela Weyne, Puerto Rico
Elizabeth Kelleher Dwyer, Rhode Island
Larry Deiter, South Dakota
Julie Mix McPeak, Tennessee
David Mattax, Texas
Todd E. Kiser, Utah
Susan L. Donegan, Vermont
Jacqueline K. Cunningham, Virginia
Mike Kreidler, Washington
Ted Nickel, Wisconsin
NAIC Support Staff: Eric Northman/Sara Robben/Tony Cotto/Cody Steinwand

    Mr. Ratcliffe. Thank you, Commissioner Hamm.
    The Chair now recognizes Mr. Nutkis for his opening 
statement.

  STATEMENT OF DANIEL NUTKIS, CHIEF EXECUTIVE OFFICER, HEALTH 
                   INFORMATION TRUST ALLIANCE

    Mr. Nutkis. Good morning, Chairman Ratcliffe, Ranking 
Member Richmond, and the distinguished Members of the 
subcommittee. I am pleased to appear today to discuss the role 
of cyber insurance in risk management, and initiatives underway 
by HITRUST and the health care industry to expand and leverage 
its role.
    I am Dan Nutkis, CEO and founder of the Health Information 
Trust Alliance, or HITRUST. While I prepared my written 
statement for the record, I would like to share with you a few 
of the highlights.
    HITRUST helps elevate the health care industry's cyber 
awareness, improve cyber preparedness, and strengthen risk 
management posture. In particular, I want to point out how 
cyber insurance is integral to this process.
    There should be no question as to the significance of 
managing cyber risk, and an organization's ability to respond 
efficiently and effectively to cybersecurity incidents plays in 
cyber resilience. To aid industry in cyber risk management, 
threat preparedness, and response, HITRUST implemented numerous 
programs in coordination with industry stakeholders, including 
our risk management framework, or HITRUST RMF.
    Our perspective on evolving cybersecurity threats facing 
the health care industry is formed based on our deep engagement 
with the industry around information protection. That 
engagement includes data from over 14,000 security assessments 
done in 2015 alone, leveraging the HITRUST RMF, as well as 
operating the industry's information-sharing and analysis 
organization, or ISAO, and running CyberRX, now in its third 
year, which is a series of industry-wide exercises developed by 
HITRUST to simulate cyber attacks on health care organizations, 
and evaluate the industry's preparedness against attempts to 
disrupt U.S. health care industry operations. In 2015, over 
1,000 organizations participated in CyberRX.
    The HITRUST RMF incorporates a risk-based control 
framework, specifically the HITRUST CSF, which is a scalable, 
prescriptive, and certifiable, risk-based information, privacy, 
and security control framework. It provides an integrated, 
harmonized set of requirements tailored specifically for the 
health care industry. The HITRUST RMF is adopted by 
approximately 80 percent of the hospitals and health plans, 
making it the most widely adopted in the industry.
    Leveraging HITRUST's knowledge and role in understanding 
and aiding industry in risk management, HITRUST approached 
Willis Towers Watson, a leading insurance brokerage, to explore 
ways to leverage the HITRUST RMF to allow insurers to better 
and more effectively evaluate cyber risk. HITRUST and Willis 
established a detailed approach to educate and substantiate the 
value of leveraging the HITRUST RMF as the basis for their 
cyber underwriting programs in the health care industry. I have 
outlined 8 points in my written testimony that provides details 
on this approach and process.
    Over the last 5 months, HITRUST and Willis have worked to 
educate cyber insurers regarding the use of the HITRUST RMF in 
supporting the cyber risk underwriting process. Insurers have 
found the HITRUST CSF to offer many advantages over the 
existing approaches, including providing a comprehensive and 
mature controls framework, aligning strong controls with risk, 
and accurately and consistently measuring residual risk.
    Allied World was the first company to offer preferred terms 
and conditions based on meeting the HITRUST CSF certification 
standards. After review and analysis, Allied World has 
determined that the CSF framework and CSF insurance methodology 
will insure its underwriting program in terms of efficiency, 
consistency, and accuracy, allowing it to better align the 
effectiveness of an organization's security controls with cyber 
insurance premium levels.
    The review also concluded that organizations that had 
obtained a HITRUST CSF certification posed lower cyber-related 
risks than organizations that had not. The comprehensiveness 
and improved risk reporting enabled by the HITRUST CSF and the 
CSF assessment summary scores in place of many of the standard 
information security application questions creates a more 
streamlined and consistent application process. Allied World 
will also provide HITRUST with loss data in order to ensure the 
HITRUST CSF control guidance accurately reflects the associated 
risks.
    In addition, we are in discussions with 5 other cyber 
underwriters regarding leveraging this approach with an 
expectation that 2 more will be participating by mid-year. It 
is clear that this approach is a win-win for the health care 
industry, underwriters, and, of course, the members and 
patients whose information they are responsible for 
safeguarding.
    For health care organizations, it drives better behavior in 
the industry, supports better control selections, and helps 
prioritize remediation activity, which ultimately provides 
better protection for patients. For cyber insurance 
underwriters, it ensures premium costs are proportionate to 
risk, provides more targeted coverage relevant to actual risks, 
and ultimately provides a more sustainable underwriting model.
    HITRUST also believes this current cyber insurance platform 
could provide the risk management focus to encourage health 
care organizations to invest in maturing their information 
protection programs, once they understand the impact residual 
risk has on cyber insurance premiums.
    With that, Mr. Chairman, I am pleased to answer any 
questions.
    [The prepared statement of Mr. Nutkis follows:]
                  Prepared Statement of Daniel Nutkis
                             March 22, 2016
    Chairman Ratcliffe, Ranking Member Richmond, and distinguished 
Members of the subcommittee, I am pleased to appear today to discuss 
the role of cyber insurance in risk management, and initiatives 
underway by HITRUST and the health care industry to ensure its role is 
enhanced. I am Daniel Nutkis, CEO and founder of the Health Information 
Trust Alliance, or HITRUST. I founded HITRUST in 2007, after 
recognizing the need to formally and collaboratively address 
information privacy and security for health care stakeholders 
representing all segments of the industry, including insurers, 
providers, pharmacies, PBMs, and manufacturers. HITRUST endeavored--and 
continues to endeavor--to elevate the level of information protection 
in the health care industry, ensuring greater collaboration between 
industry and Government, and raising the competency level of 
information security professionals.
    In my testimony today, I would like to highlight how HITRUST helps 
elevate the industry's cyber awareness, improve cyber preparedness and 
strengthen the risk management posture of the health care industry. In 
particular, I want to point out how cyber insurance is integral to this 
process.
    There should be no question as to the significance that managing 
cyber risk and an organization's ability to respond efficiently and 
effectively to cybersecurity incidents plays in cyber resilience. To 
aid industry in cyber risk management, threat preparedness, and 
response, HITRUST has implemented numerous programs in coordination 
with industry stakeholders as part of its overall risk management 
framework (RMF).
    The HITRUST RMF provides a risk-based control framework, 
specifically the HITRUST CSF, which is a scalable, prescriptive, and 
certifiable risk-based information privacy and security control 
framework. It provides an integrated, harmonized set of requirements 
tailored specifically for health care.
    Health care organizations are subject to multiple regulations, 
standards, and other policy requirements, and commonly-accepted best 
practice standards, including implementing the NIST Cybersecurity 
Framework. However, these ``authoritative sources'' often overlap in 
the depth and breadth of their requirements, which, when integrated and 
harmonized, can often be mutually reinforcing when intelligently 
applied in the intended environment.
    To ensure the HITRUST CSF remains relevant, it is reviewed and 
updated at least annually. The review not only takes into account 
changes in underlying regulations and standards, but it also considers 
best practices and lessons learned from security incidents, incident 
response exercises, and industry post-data breach experiences.
    This level of comprehensiveness, relevance, and applicability is 
why over 80 percent of hospitals and health plans, as well as many 
other health care organizations and business associates, have adopted 
the HITRUST CSF, making it the most widely adopted privacy and security 
framework in health care.
    Also distinctive to the HITRUST RMF, the HITRUST CSF Assurance 
Program delivers a comprehensive, consistent, and simplified compliance 
assessment and reporting program for regulatory requirements, such as 
HIPAA, HITECH, and other Federal and State requirements, and the 
sharing of assurances between and amongst covered entities and business 
associates. Specifically designed for the unique regulatory and 
business needs of the health care industry, the HITRUST CSF Assurance 
Program provides health care organizations and their business 
associates with a common approach to manage privacy and security 
assessments that enables efficiencies and contains costs associated 
with multiple and varied information protection requirements. The CSF 
Assurance Program incorporates specific guidelines to allow a broad 
array of leading industry professional services firms to perform 
services, while allowing HITRUST to oversee quality assurance processes 
to ensure assessments are rigorous, consistent, and repeatable.
    An additional benefit of using the HITRUST RMF is that it supports 
assessment and reporting for multiple and varied purposes,\1\ such as 
the evaluation of AICPA's Trust Services Principles and Criteria and 
SSAE-16 SOC 2 reporting ``scorecards'' against regulatory requirements 
and best practice frameworks, such as HIPAA, the NIST Cybersecurity 
Framework, and State-based covered entity privacy and security 
certifications like the SECURETexas program.\2\
---------------------------------------------------------------------------
    \1\ Health care organizations have been saving roughly 25-30% of 
audit costs when leveraging a HITRUST RMF Certification and a SSAE-16 
SOC2 audit. Similar underwriting and auditing savings are also 
envisioned as the cyber insurance industry matures.
    \2\ SECURETexas is the first State program of its kind in the 
country offering privacy and security certification for compliance with 
State and Federal laws that govern the use of protected health 
information (PHI).
---------------------------------------------------------------------------
    Just last month, HITRUST announced the availability of a new guide 
to assist health care organizations in implementing the NIST 
Cybersecurity Framework. This new guide was developed in consultation 
with the Healthcare and Public Health (HPH) Sector Coordinating Council 
(SCC) and Government Coordinating Council (GCC), along with input from 
other sector members and the DHS Critical Infrastructure Cyber 
Community (C3), to help HPH Sector organizations understand and use the 
HITRUST RMF to implement the NIST Cybersecurity Framework in the HPH 
Sector and meet its objectives for critical infrastructure protection.
    I would also note that the availability of the HITRUST CSF, HITRUST 
CSF Assurance program and this implementation guide also provides an 
excellent basis for the Department of Health and Human Services (HHS) 
to leverage ``voluntary, consensus-based, and industry-led guidelines, 
best practices, methodologies, procedures, and processes that serve as 
a resource for cost-effectively reducing cybersecurity risks for a 
range of healthcare organizations.''
    HITRUST has spearheaded initiatives in other areas of cybersecurity 
as well. In 2012, after identifying the need for coordination among 
stakeholders, HITRUST launched a cyber-threat intelligence-sharing and 
analysis program to provide threat intelligence, coordinated incident 
response and knowledge transfer specific to cyber threats pertinent to 
the health care industry. This program facilitates the early 
identification of cyber attacks and the creation of best practices 
specific to the health care environment and maintains a conduit through 
the Department of Homeland Security (DHS) to the broader cyber-
intelligence community for analysis, support, and the exchange of 
threat intelligence. HITRUST was also the first to track 
vulnerabilities related to medical devices and electronic health record 
(EHR) systems, which are both emerging areas of concern.
    This program became the foundation for the HITRUST Cyber Threat 
XChange (CTX), which significantly accelerates the detection of and 
response to cyber threat indicators targeted at the health care 
industry. HITRUST CTX automates the process of collecting and analyzing 
cyber threats and distributing actionable indicators in electronically-
consumable formats (e.g. STIX, TAXII, and proprietary SIEM formats) 
that organizations of almost all sizes and cybersecurity maturity can 
utilize to improve their cyber defenses. HITRUST CTX acts as an 
advanced early warning system as cyber attacks are perpetrated on the 
industry. The HITRUST CTX is now offered free of charge to the public 
and has gained wide acceptance within the health care industry. HITRUST 
is also a Federally-recognized Information Sharing and Analysis 
Organization (ISAO), has strong relationships with DHS and the Federal 
Bureau of Investigation (FBI), and considers them integral partners in 
better addressing the threat landscape facing health care today and 
strengthening the continuum of care.
    HITRUST also developed CyberRX, now in its third year, which is a 
series of industry-wide exercises developed by HITRUST to simulate 
cyber attacks on health care organizations and evaluate the industry's 
preparedness against attempts to disrupt U.S. health care industry 
operations. These exercises examine both broad and segment-specific 
scenarios targeting information systems, medical devices, and other 
essential technology resources of the HPH Sector.\3\ CyberRX findings 
are analyzed and used to identify general areas of improvement for 
industry, HITRUST, and Government and to understand specific areas of 
improvement needed to enhance information sharing between health care 
organizations, HITRUST, and Government agencies.
---------------------------------------------------------------------------
    \3\ See https://www.dhs.gov/healthcare-and-public-health-sector.
---------------------------------------------------------------------------
    I only share this information to provide context on our engagement, 
experience, knowledge, and commitment in supporting the health care 
industry around cyber risk management.
    Now to the specifics of the topic at hand. We can all agree that 
managing the risks associated with cyber threats requires a 
comprehensive approach to risk management, including the implementation 
of strong security controls such as the HITRUST CSF, continuous 
monitoring of control effectiveness, and routine testing of cyber 
incident response capabilities, such as in CSF Assurance and CyberRX. 
Commonly applied ``network hygiene'' only covers what is referred to as 
``basic blocking and tackling.'' Cyber information sharing, such as 
that facilitated by HITRUST CTX, is designed to help organizations go 
beyond basic ``hygiene'' by alerting organizations to potential cyber 
threats, however, information sharing is very much dependent on the 
maturity of participating organizations and their ability to consume 
and respond to the potential threat indicators that have been 
identified.
    While there is not a perfect solution to cybersecurity; the best 
strategy is to prevent, detect, and respond before the adversary 
achieves their objective.
    A data breach in the health care industry not only has financial 
and reputational effects on the company targeted by the threat actors, 
but the effects could be dramatic for members, patients, and their 
families due to the nature of the data disclosed. Personal health 
information or identities could be stolen directly from hospitals, 
insurance companies, pharmacies, and from any business associate 
supporting these organizations. Beyond the privacy implications of data 
breach incidents, these breaches have the potential to disrupt 
operations of a health care facility or affect patient care. The 
various complexities, interdependencies, and unique attributes all 
create various risk levels that need to be considered across the 
continuum of care.
    And HITRUST firmly believes cyber insurance and cyber insurance 
underwriters can play a key role in supporting an organization's 
overall risk management strategy and help provide for the ``adequate 
protection'' of patient information.
    Organizations have relied heavily on cyber insurance as one of the 
means to reduce the overall financial impact of cyber-related incidents 
or breaches. But after numerous cyber-related breaches affecting health 
care organizations over the past few years, it is clear that health 
care data is one of the prime targets of malicious cyber threat actors 
who strive to monetize the data they seize. As a result of increased 
targeting by threat actors and recent incidents, underwriters have 
determined the risks were greater than they had anticipated given the 
methods leveraged to evaluate risk and, subsequently, health care 
organizations' cyber insurance premiums have increased dramatically.
    In many cases, companies who underwrite cyber insurance struggle 
with an effective way to evaluate cyber risk and the full extent of a 
company's cybersecurity controls.
    Every cyber insurer customarily uses a specific application for 
insurance, and each application differs substantially. These tools are 
intended to be used to help insurers gain an understanding of key risk 
controls, but are not intended to be used as part of a comprehensive 
assessment. Additionally, many cyber insurance carriers rely on a wide 
array of supplemental questionnaires intended to provide them with 
additional insight to support coverage and pricing decisions. However, 
the industry lacks a consistent underwriting process, given that the 
questions and applications can vary significantly from one carrier to 
the next.
    Insurance underwriters have always been investigating ways to 
efficiently and accurately evaluate risk and help health care 
organizations ensure health information systems and services are 
adequately protected from cyber risks.
    Leveraging HITRUST's role in aiding industry in risk management, 
HITRUST approached Willis Towers Watson (Willis), a leading insurance 
broker, to explore ways to leverage the HITRUST RMF to allow insurers 
to better evaluate cyber risk and to also address 3 concurrent needs:
    (1) Ensure people, processes, and technology elements completely 
        and comprehensively address information and cybersecurity 
        risks;
    (2) Identify risks from the use of information by the 
        organization's business units; and
    (3) Facilitate appropriate risk treatments, including risk 
        avoidance, transfer, mitigation, and acceptance.
    HITRUST and Willis established the following approach to educate 
and substantiate the value of leveraging the HITRUST RMF as the basis 
for their cyber underwriting programs in the health care industry:
    (1) Compare the use of the HITRUST RMF, and the HITRUST CSF in 
        particular, to current application-based risk evaluation and 
        pricing methodology;
    (2) Map the HITRUST CSF to insurer applications to demonstrate how 
        it addresses the current application process and the additional 
        depth it provides;
    (3) Show how superior risk evaluation efficiency and consistency 
        can be achieved using assessment scores and summaries without 
        sacrificing detail;
    (4) Identify where the HITRUST CSF assessment scores and summaries 
        can replace current application elements and other risk 
        management-gathering methods;
    (5) Use test cases to substantiate accuracy and efficiency of the 
        HITRUST CSF as a key underwriting resource in risk evaluation 
        that allows an underwriter to compare an application-based risk 
        evaluation to HITRUST CSF assessment-based risk evaluation;
    (6) Correlate claims with HITRUST CSF scores for test cases in 
        support of a pricing framework aligned with the scores;
    (7) Provide feedback to HITRUST on successful attack scenarios to 
        bring underwriter experience and any key concerns into the 
        HITRUST CSF development process to improve risk management; and
    (8) Explore a pricing framework based on HITRUST CSF certification 
        and various levels of control maturity in the certification 
        process.
    By leveraging a standardized approach to control selection and risk 
assessment and reporting, underwriters and other stakeholders can 
obtain risk estimates that are accurate, consistent, repeatable, and 
evolving, that is, risk estimates that take evolving risks and threats 
into consideration.
    The goal is to integrate risk management into the underwriting 
process without adding confusion or unneeded complexity. HITRUST and 
Willis studied the relationship between HITRUST CSF and CSF Assurance 
control assessment scores, risk, coverage, and premiums to provide a 
simple, but effective data point to complement existing underwriting 
models.
    After many months analyzing the benefits of an underwriting program 
leveraging a robust risk management framework, both HITRUST and Willis 
saw immediate value in the approach and began educating underwriters on 
a cybersecurity assessment methodology that would provide the industry 
with consistent, repeatable, reliable, and precise estimates of cyber-
related risk. The HITRUST CSF and CSF Assurance program would provide 
underwriters with the information they could use to better understand 
an organization's residual cyber risk, and apply to their underwriting 
process.
    The benefits of the HITRUST RMF-based underwriting model for cyber 
insurance in the health care industry allows organizations to maximize 
the benefits of demonstrating an enhanced information security posture. 
Ultimately, the better controls you have in place, the less likely you 
are to experience a breach. If a breach does occur, the potential 
impact will likely be contained and mitigated. This will translate into 
lower premiums and broader coverage for organizations who meet certain 
criteria defined by the HITRUST CSF. This is in many respects analogous 
to a ``good driver discount program''.
    In addition to streamlining the underwriting process by leveraging 
their existing risk assessment, it also encourages organizations to 
consider the financial implications of cyber-related risks. 
Specifically, analyzing the impact on premium from investments reducing 
their cyber risks. Which is the mindset and behavior we would like to 
see organizations engage.
    Over the past 5 months, HITRUST and Willis have worked to educate 
cyber insurers regarding the use of the HITRUST CSF and CSF Assurance 
program in supporting the cyber risk underwriting process. Insurers 
have found the HITRUST CSF to offer many advantages over the existing 
approaches, including providing a comprehensive and mature controls 
framework, aligning strong controls with risk, and accurately and 
consistently measuring residual cyber risk.
    Allied World was the first company to offer preferred terms and 
conditions based on meeting the HITRUST CSF certification standards. 
After review and analysis, Allied World U.S. has determined that the 
HITRUST CSF framework and CSF Assurance methodology, will enhance its 
underwriting program in terms of efficiency, consistency, and accuracy, 
allowing it to better align the effectiveness of an organization's 
security controls with cyber insurance premium levels.
    The review also concluded that organizations that had obtained a 
HITRUST CSF Certification generally posed lower cyber-related risks 
than those organizations that have not. The comprehensiveness and 
improved risk reporting enabled by the HITRUST CSF and the CSF 
Assessment summary scores in place of many of the standard information 
security application questions create a more streamlined and consistent 
application process. Allied World will also provide HITRUST with loss 
data in order to ensure the HITRUST CSF control guidance accurately 
reflects the associated risks.
    In addition, Willis and HITRUST are in discussions with 5 other 
cyber underwriters regarding leveraging this approach, with an 
expectation that 2 more will be participating by mid-year. It is clear 
that this approach is a win-win for the health care industry, 
underwriters, and of course, the members and patients whose information 
they are responsible for safeguarding.
    For health care organizations, it drives better behavior in the 
industry, supports better control selection, and helps prioritize 
remediation activity, which ultimately provides better protection for 
patients. For cyber insurance underwriters, it ensures premium costs 
are proportional to risk, provides more targeted coverage relevant to 
actual risks, and ultimately provides a more sustainable underwriting 
model.
    As you can see, the cybersecurity and risk management challenges 
facing the health care industry are complex and in some cases daunting, 
in many cases unique to industry dynamics, and they evolve at a pace 
that is unrealistic to manage by regulations and strict Governmental 
policy or high-level policy document.
    HITRUST, in partnership with industry, has been constantly working 
to establish programs to aid industry in mitigating cyber risks and is 
committed to be the link between the public and private sector that 
will continue to provide value and strengthen our industry, our 
Government, our economy, and our Nation as a whole against the growing 
cyber threats we face.
    HITRUST saw an opportunity to bring relevant industry stakeholders 
together to help health care organizations better manage cyber risk and 
help the insurance industry better align cyber insurance premiums with 
this risk by leveraging a formal framework, like the HITRUST RMF. Risk 
management methodologies help companies address applicable regulations, 
standards, and best practices, and health care and insurance industry 
threat data helps identify high-risk controls requiring executive 
attention and link incidents to controls guidance. In many ways, this 
breach data helps inform insurance loss experience and allows cyber 
underwriters to play a key role in understanding where losses are 
occurring.
    HITRUST also believes this current cyber insurance platform could 
provide the risk management focus to further drive innovation and 
encourage health care organizations to invest in maturing their 
information protection programs. HITRUST is working with underwriters 
to improve actuarial data and provide better estimates of risks while 
using threat and incident data to improve control selection within the 
HITRUST RMF. While we believe we have a novel approach and are 
leveraging new partners to grow its acceptance, mandates have the 
potential to stifle the innovations taking place in the marketplace. 
This market-based approach will provide a better insurance product for 
policy holders while allowing organizations to grow and mature their 
information security programs.
    HITRUST, through its many tools and programs, remains committed to 
ensure that the health care industry can properly address these 
challenges. Cyber insurance will be a key component in HITRUST's 
approach to cybersecurity and cyber risk management, and we are excited 
about pioneering this approach to strengthen risk management.
    Thank you again for the opportunity to join you today and share 
these insights. I look forward to your questions.

    Mr. Ratcliffe. Thank you, Mr. Nutkis. The Chair now 
recognizes Mr. Finan for his opening statement.

STATEMENT OF THOMAS MICHAEL FINAN, CHIEF STRATEGY OFFICER, ARK 
                   NETWORK SECURITY SOLUTIONS

    Mr. Finan. Chairman Ratcliffe, Ranking Member Richmond, and 
Members of the subcommittee, thank you very much for inviting 
me to address the role of cybersecurity insurance in risk 
management. I am greatly honored to share my perspectives with 
you about this very important topic.
    I am the chief strategy officer with Ark Network Security 
Solutions in Dulles, Virginia, but until recently I served as a 
senior cybersecurity strategist and counsel with DHS's National 
Protection and Programs Directorate, where I led the 
Department's Cyber Incident Data and Analysis Working Group for 
the last 4 years.
    DHS engaged the cybersecurity insurance market early on 
because of its tremendous potential to incentivize better cyber 
risk management, and our starting point really was the fire 
insurance market. Through years of collective claims 
information, insurers have been very successful in identifying 
the fire safety controls that need to be in place to protect 
lives and property. Those controls have become the gold 
standard. You can't get a permit to build a commercial 
building, and you can't get fire insurance for that building 
unless you have those controls in place.
    We wanted to know if the cybersecurity insurance market 
could do the same thing. Specifically, could it help identify 
the cyber risk control equivalents of sprinkler and other fire 
suppression systems? We discovered that while the insurance 
industry will certainly get there, there is still more work to 
do.
    DHS initiated a series of public workshops from October 
2012 through the spring of 2014, to determine what obstacles 
are impeding the market's progress. Brokers and underwriters 
identified 4, including a lack of actuarial data: The absence 
of common cybersecurity standards, best practices and metrics; 
a lack of knowledge about critical infrastructure dependencies 
and interdependencies; and an on-going failure by many 
companies to include cyber risk within their existing 
enterprise risk management programs.
    In response, brokers and underwriters look to see if a 
company has an effective cyber risk culture to determine if it 
is a safe insurance bet. They identified 4 pillars of such a 
culture, including what roles executive leadership, education 
and awareness, technology, and relevant information sharing 
play in securing the business environment. Given these 
findings, we asked our insurance participants what we could do 
to help advance the cyber insurance market. They told us that 
we should turn our attention to the concept of a cyber incident 
data repository, one where companies could anonymously share 
their cyber incident data so it could be aggregated and 
analyzed for maximum risk management benefit.
    In December 2014, DHS accordingly established the CIDAWG to 
bring together brokers, underwriters, CISOs, and other 
cybersecurity professionals to discuss the repository idea. 
Throughout 2015, the group discussed 3 major topics: The value 
proposition for a cyber incident data repository, the kinds of 
data a repository would need to be successful, and how to 
overcome likely obstacles to repository sharing. A fourth 
topic, how a repository should actually be structured, will be 
the subject of a DHS workshop next month.
    We published 3 white papers last year that detailed the 
CIDAWG's findings. The first, on the value proposition, 
identified 5 kinds of analysis that would benefit brokers, 
underwriters, CISOs, and others. Specifically, analysis that 
identifies top cyber risks and the controls that are most 
effective in addressing them; analysis that informs peer-to-
peer benchmarking, promotes sector differentiation, supports 
cyber risk forecasting, trending and modeling, and advances 
cyber risk management culture. The group then spent several 
months identifying 16 data categories that the CIDAWG believed 
would help deliver on that value, and we released them publicly 
in September of last year.
    In December, the CIDAWG published its third white paper on 
likely obstacles to repository sharing and ways to overcome 
them. They included assuring anonymization of the repository, 
ensuring the security of the data it holds, cultural and 
regional challenges that could result in skewed data 
contributions, perceived commercial disadvantage to repository 
participation, internal process hurdles, the perceived value of 
a repository, assuring appropriate, adequate, and equitable 
participation, and technical design issues.
    The CIDAWG was very successful in breaking down barriers 
between the insurance industry and technical cybersecurity 
professionals. I strongly believe that the same model could be 
adopted to help address the cybersecurity needs of mid-size and 
small businesses that today are struggling to keep up. Although 
they are often key players in the global supply chain, and a 
source for the continued growth of the cybersecurity insurance 
market, they too often lack the budgets, expertise, staff, and 
time to adequately and consistently address their cyber risks. 
As a result, mid-size and small businesses tend to have weaker 
security that makes them not only easier to attack, but also a 
prime launching point for attacks against others.
    Cybersecurity expert exchanges, best practice knowledge 
sharing, compliance, automation, and coordination of 
cybersecurity investments are just a few topics of conversation 
that a CIDAWG-like group could initiate to address this key 
area of vulnerability that affects us all.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Finan follows:]
               Prepared Statement of Thomas Michael Finan
                             March 22, 2016
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee, thank you for inviting me to address the role of 
cybersecurity insurance in risk management. I am the chief strategy 
officer at Ark Network Security Solutions, a private company that 
provides software and services to accelerate standards compliance for 
enhanced security. Until this past December, I served as a senior 
cybersecurity strategist and counsel with the U.S. Department of 
Homeland Security's (DHS) National Protection and Programs Directorate 
(NPPD), where I launched and led DHS's Cybersecurity Insurance 
Initiative. I will describe the role that DHS has played in identifying 
and overcoming obstacles to a more robust cybersecurity insurance 
market. I will also discuss how the private-public engagement model 
that DHS has followed as a convener of the insurance conversation could 
be extended to address the cyber risk management needs of mid-size and 
small businesses nationally.
                dhs's cybersecurity insurance initiative
    As a largely operations-focused organization, NPPD may not 
immediately come to mind as a likely candidate to lead a sustained 
discussion with stakeholders about cybersecurity insurance. NPPD has a 
more general mandate beyond its day-to-day cybersecurity mission, 
however, and its mission statement says it all:

``NPPD's vision is a safe, secure, and resilient infrastructure where 
the American way of life can thrive. NPPD leads the national effort to 
protect and enhance the resilience of the nation's physical and cyber 
infrastructure.''

    That means DHS must do more than just help its partners extinguish 
rapidly-developing cyber risk ``fires.'' It also requires DHS to think 
more strategically and to figure out what cyber risk fires--and what 
potential solutions to them--may be ahead and then determine how to 
address both as part of its overall resilience mission. Ultimately, DHS 
is in the risk management business. It is increasingly called to think 
about risk management not just 3 to 5 minutes, hours, or days ahead 
but--like its external partners--3 to 5 years ahead.
    Insurance, we learned, is a key part of that process. When we began 
DHS's inquiry into the cybersecurity insurance market, we asked whether 
cybersecurity insurance could--as a market force--raise the 
cybersecurity ``floor'' by getting more critical infrastructure owners 
to manage their cyber risk better in return for more relevant and 
hopefully more affordable policies. At the time, our point of reference 
was the fire insurance market. We knew that insurers had been very 
successful in identifying specific fire safety controls that today are 
not only conditions for coverage within fire insurance policies but 
also prerequisites for obtaining a building permit. Our hope was that 
brokers and underwriters together could help identify the cybersecurity 
equivalents of sprinkler and other fire suppression systems. What we 
discovered is that while they may get there one day, they are not there 
yet.
Challenges
    From 2012 through 2014, DHS engaged a wide range of partners 
through a series of public workshops on the cybersecurity insurance 
topic. Our participants included brokers and underwriters, chief risk 
officers, chief information security officers, critical infrastructure 
owners and operators, and members of the academic community. During the 
course of our conversations, we asked them whether now or in the future 
insurance could help incentivize better cyber risk management. DHS was 
especially interested in finding out if the market already provided 
coverage--or could eventually provide coverage--for physical damages 
and bodily injuries that might result from a successful cyber attack 
against critical infrastructure. What we heard back is that several 
major obstacles continue to prevent insurers from providing more 
cybersecurity insurance coverage--specifically, higher limits--than 
they currently do. Chief among them are:
  <bullet> First, the market suffers from an on-going lack of actuarial 
        data. Unlike fire insurance, insurers do not have 100 years' 
        worth of cyber loss data that they can use to build out new 
        policies. This has inhibited them from providing more than the 
        $10 to $15 million in primary coverage that they historically 
        have offered customers for data breach and network security-
        related losses. Despite some recent progress, moreover, very 
        few insurers provide discrete coverage for cyber-related 
        critical infrastructure loss. When we asked why, the insurers 
        explained that for obvious reasons, they do not receive claims 
        against policies that do not yet exist. Without such claims, 
        however, they have no way to build out the actuarial tables 
        they need to expand their offerings. In short, they are left 
        with little insight into the growing number of SCADA and other 
        industrial control system attacks that are occurring world-
        wide. They insurers further advised that they similarly lack a 
        consistent source of raw cyber incident data that they could 
        alternatively use to get their underwriting bearings in this 
        area.
  <bullet> Second, brokers and underwriters cited the absence of common 
        cybersecurity standards, best practices, and metrics as a 
        further hurdle to a more robust market. They nevertheless cited 
        the advent of the NIST Cybersecurity Framework in 2014 as a 
        very positive development. Many advised that the Framework's 
        common vocabulary for cyber risk management topics was helping 
        them have more in-depth conversations with their current and 
        potential clients about their cyber risk profiles than 
        otherwise would be the case. They also told us that they would 
        like to see tailored versions of the Framework emerge for each 
        of the Nation's 16 critical infrastructure sectors that provide 
        more particularized risk management information to their 
        clients in those sectors. The ultimate utility of the 
        Framework, they added, remains to be seen. Several underwriters 
        explained that they continue to seek answers to two key 
        questions: (1) Are companies that use the Framework having a 
        better cyber loss experience than their peers that don't; and 
        (2) what Framework-inspired controls should be incorporated 
        into cybersecurity insurance contracts as conditions for 
        coverage--like sprinkler systems for fire insurance?
  <bullet> Third, the workshop participants noted an on-going lack of 
        understanding about critical infrastructure dependencies and 
        interdependencies as another major obstacle. Like most of the 
        population, brokers and underwriters do not know much about how 
        a cyber-related critical infrastructure failure in one sector 
        might cascade across multiple other sectors. Until they have a 
        better idea about how big and bad related losses might be--and 
        where a strategically-placed risk control might make a 
        difference--they are reluctant to develop new insurance 
        products to cover this loss category. Without more insight, one 
        underwriter explained, one big loss affecting hundreds of 
        clients could effectively put them out of business.
  <bullet> Fourth, a final challenge to the cybersecurity insurance 
        market is the on-going failure by many companies to include 
        cyber risk as part of their traditional enterprise risk 
        management--or ERM--programs. Despite the growing threat, many 
        companies continue to treat cyber risk as an IT problem, 
        separate and apart from the other business risks they face. 
        Without including cyber risk within existing ERM programs, 
        however, they really are not ``doing ERM.'' Consequently, they 
        often are blind to their true risk profiles and may not be 
        prioritizing their risk management resources most effectively.
Cyber Risk Culture
    Given these obstacles, brokers and underwriters told us that they 
generally consider 2 major risk management factors when assessing a 
company's qualifications for coverage: Its compliance with available 
cybersecurity standards and its risk culture. In so doing, they pay 
particular attention to the internal cybersecurity practices and 
procedures that a company has adopted, implemented, and enforced. 
Several underwriters advised that they focus primarily on risk culture 
when assessing a potential insured for coverage--leading them to draft 
custom policies for clients rather than more generic ``template'' 
policies that can be marketed more broadly. Regardless of their 
particular practices, practically all of the participants suggested 
that DHS should turn its attention next to how companies should go 
about building more effective cyber risk cultures.
    This made a lot of sense. We started thinking: If a core group of 
brokers and underwriters is looking to how companies individually 
manage their cyber risk, then maybe we could discover some lessons 
learned that might be more broadly applicable to others. We therefore 
identified 4 ``pillars'' of an effective cyber risk culture that 
appeared to merit a deeper dive. Those pillars included the roles of:
  <bullet> Executive Leadership.--What should boards of directors be 
        demanding--and doing themselves--to build corporate cultures 
        that manage cyber risk well?
  <bullet> Education and Awareness.--What messages, training, and 
        accountability mechanisms need to be in place internally in 
        companies, among partnering companies, and at a National level 
        to help create a culture of cybersecurity?
  <bullet> Technology.--How should technology be leveraged to encourage 
        better cybersecurity practice?
  <bullet> Relevant Information Sharing.--Who within a company needs 
        what information, and in what formats, to help drive more 
        effective cyber risk management investments?
    Several core conclusions emerged from our discussions:
  <bullet> First, for many companies, the business case for more 
        effective cyber risk management investment still has not been 
        made. The key reason for this appears to be that cyber risk by 
        and large has not been reduced to terms that non-technical 
        business leaders can readily understand--namely, the financial 
        costs of cyber events and the potential damages to reputation 
        for failing to mitigate them adequately. Many of our 
        participants suggested that to overcome this, companies should 
        adopt ERM programs that incorporate cyber risk into the vast 
        pool of other business risks they face.
  <bullet> Second, many of our participants called for more research 
        when it comes to the costs and benefits of existing and future 
        cybersecurity solutions. Once corporate leaders engage, they 
        explained, they will want to know what investments to make to 
        best manage their cyber risk. In other words, which controls 
        offer the most cybersecurity bang for the buck?
  <bullet> Third, the participants explained that it probably is 
        unrealistic to expect the insurance industry to come up with a 
        one-size-fits-all suite of cyber risk controls that everyone 
        should adopt in return for more coverage and (eventually) lower 
        premiums. What the underwriters told us is that they typically 
        do not spend weeks with potential insureds reviewing and red-
        teaming every aspect of their organizations to see what is 
        happening with their information security. Moreover, they no 
        longer subject corporate IT professionals to hundreds of 
        detailed questions getting at the technical and human-based 
        control aspects of this information. Instead, they usually 
        survey the companies--asking just 20-25 questions directed at 
        basic, high-level information security issues to eliminate only 
        the most ill-prepared companies from coverage consideration.
    This third point, however, does not mean that the insurance 
industry does not have an important cyber risk management role to play. 
On the contrary, what a growing number of strategically-focused brokers 
and underwriters look for during the underwriting process, separate and 
apart from the insurance application, is how well companies understand 
where they uniquely sit in the cyber risk landscape and what they are 
doing about their particular circumstances. Put simply, this means:
  <bullet> Do they know what cyber incidents are actually happening to 
        them based on their own data and reports from outside sources?
  <bullet> Do they know--through public sources and private 
        conversation--what kinds of cyber incidents are happening to 
        other companies like them; and
  <bullet> What cyber risk management investments are they making based 
        on this information?
    In other words, these brokers and underwriters are assessing 
whether a company exhibits an engaged cyber risk culture--one where 
corporate leaders support risk mitigation efforts aimed at the cyber 
risks most relevant to their companies. Such engagement serves as a 
critical point of differentiation between companies that represent a 
safer versus unsafe cyber risk.
                             action options
    During DHS's fourth and final public workshop in April 2014, we 
asked our insurance participants how we could best help them work 
through some of the cybersecurity insurance market's persistent 
challenges. They identified 3 topic areas for further discussion:
  <bullet> Cyber incident information sharing (as opposed to cyber 
        threat sharing), with a specific focus on the value of creating 
        an anonymized cyber incident data repository;
  <bullet> Cyber incident consequence analytics; and
  <bullet> Promotion of comprehensive ERM strategies that incorporate 
        cyber risk.
    When we asked how to prioritize this list, the insurance 
participants agreed that DHS should focus first on the concept of a 
cyber incident data repository--specifically, one that helps meet the 
cyber risk analysis needs of the insurance industry, chief information 
security officers (CISOs), chief security officers (CSOs), and other 
cybersecurity professionals.
    From the start, the brokers and underwriters described a repository 
notionally as a place where companies could anonymously share their 
cyber incident data. That data, they explained, could then be 
aggregated and analyzed to increase awareness about current cyber risk 
conditions and longer-term cyber risk trends. They explained that this 
information could benefit not only the insurance industry with its risk 
transfer efforts but also CISOs, CSOs, and other cybersecurity 
professionals with their complementary cyber risk mitigation efforts. 
The brokers and underwriters emphasized that these professionals should 
be central to any future repository discussion. They felt strongly that 
if the men and women on the front lines of cybersecurity are not 
``bought in'' on the idea, then all the talking in the world would be 
for naught. We agreed and endeavored to engage not only insurance 
experts but also these day-to-day practitioners who had hands-on 
knowledge about cyber incidents and the kinds of analysis that would 
help them better prepare, respond, and recover from them. The results 
from our initial follow-up conversations testing the waters were 
promising:
  <bullet> From the insurance side, we heard that a repository could 
        help the industry build up the information stores it needs to 
        better understand the impacts of cyber events, their frequency, 
        and the optimal controls for mitigating particular kinds of 
        cyber incidents. Various brokers and underwriters told us that 
        this knowledge could help them scope and price policies that 
        contribute more effectively and more affordably to a company's 
        overall corporate risk management strategy. Many of them 
        believed, moreover, that a repository one day could help them 
        provide more cybersecurity insurance at lower rates to clients 
        that invest in so-called ``best-in-class'' controls. 
        Repository-supported analysis, they explained, would be 
        essential for identifying those controls.
  <bullet> For their part, the CISOs and CSOs told us that repository-
        supported analysis could help them conduct much-needed peer-to-
        peer benchmarking and other activities that could bolster their 
        in-house cybersecurity programs.
  <bullet> Cybersecurity solutions providers reported that they also 
        have a critical stake in any future repository. They explained 
        that repository-supported analysis would likely influence how 
        the market for new solutions develops. Specifically, they told 
        us that greater knowledge about longer-term cyber incident 
        trends will inform the kinds of products and services that they 
        create to meet the risk mitigation needs of clients across 
        every industry sector.
                               the cidawg
    In late 2014, DHS approached the Critical Manufacturing Sector 
Coordinating Council (CMSCC) to sponsor and identify willing CISOs to 
participate in the newly-initiated Cyber Incident Data and Analysis 
Working Group (CIDAWG). The CMSCC was immediately supportive of the 
repository concept and named several CISOs to the group. DHS also was 
very fortunate to be joined by a number of brokers and underwriters 
from the previous public workshops who had been strong proponents of 
the idea. At the outset, the CIDAWG included about 10 brokers and 
underwriters that were among the top thought leaders in the cyber 
insurance industry. DHS paired them with approximately 25 CISOs, CSOs, 
and other cybersecurity professionals to enter into a sustained 
dialogue about 4 main agenda items:
  <bullet> The value proposition for a cyber incident data repository;
  <bullet> The data categories necessary to support repository-
        supported analysis that helps companies manage their cyber risk 
        better;
  <bullet> How to encourage the voluntary sharing of cyber incident 
        data repository into a repository; and
  <bullet> How a repository should be structured in any proof of 
        concept stage.\1\
---------------------------------------------------------------------------
    \1\ The CIDAWG's conclusions about the first 3 of these topics are 
included in a series of white papers available on DHS's Cybersecurity 
Insurance webpage, accessible at https://www.dhs.gov/cybersecurity-
insurance.
---------------------------------------------------------------------------
    To be clear, DHS is not building a repository. Instead, it is 
creating a safe space for people to discuss how a repository notionally 
should come together as a place where companies feel comfortable 
sharing their cyber incident information anonymously. To do so, DHS 
established several ground rules that have been critical to the success 
of the project to date:
  <bullet> During DHS's previous public workshops, we learned that 
        hosting our discussions on a confidential basis helped promote 
        rigorous debate. We therefore followed suit with the CIDAWG and 
        held all of our meetings under the auspices of the Critical 
        Infrastructure Partnership Advisory Council (CIPAC), a 
        mechanism that allowed us to keep them closed to the public. We 
        likewise strictly enforced the Chatham House Rule to ensure a 
        constant flow of conversation among CIDAWG participants.
  <bullet> At all times, DHS also tried to be sensitive to the demands 
        that the CIDAWG's work placed on its members. They were located 
        all over the country across every time zone, and we recognized 
        that their time was extremely valuable. To that end, we 
        scheduled CIDAWG teleconferences for up to twice a month, for 
        up to 2 hours at a time. While we scheduled 2 in-person 
        meetings for the group in the Washington, DC, area during the 
        year, we did so only with the participants' consent. We also 
        provided them with several months of lead time so they could 
        provide notice to their employers and budget and plan for the 
        meetings accordingly.
The Value Proposition
    The CIDAWG's first topic was the value proposition for a 
repository. How could it help advance the cause of cyber risk 
management and what kinds of analysis would be most useful to the 
cybersecurity industry, to CISOs and CSOs, and why? The brokers and 
underwriters responded that a repository could help facilitate the 
development of cybersecurity best practices that insurers should 
require within their policies as conditions for coverage. The CISOs and 
CSOs added that a repository could provide the data needed for more 
insightful peer-to-peer benchmarking that could help justify--or 
modify--existing cybersecurity investments. As they explained, knowing 
how a company's peers are faring on the cyber risk management front and 
how it compares to them goes a long way toward making the business case 
for needed funding. Both groups noted that repository-supported 
analysis likewise could help the cyber risk management community 
identify longer-term cyber risk trends, allowing for new kinds of cyber 
risk forecasting that could help further inform cybersecurity budgets.
    In June of 2015, the CIDAWG completed its first white paper that 
captured the group's core findings. The paper detailed 6 major value 
proposition categories for the kind of repository that they were 
envisioning. Specifically, they believed that it could help by 
supporting analysis that:
  <bullet> Identifies top cyber risks and the most effective controls 
        to address them;
  <bullet> Informs peer-to-peer benchmarking;
  <bullet> Promotes sector differentiation;
  <bullet> Supports cyber risk forecasting, trending, and modeling; and
  <bullet> Advances cyber risk management culture.
The Data Categories
    In September 2015, the CIDAWG released its second white paper about 
the cyber incident data categories that contributors should share into 
a repository to deliver on that value. Early on, the brokers and 
underwriters explained that they wanted to know more about the types of 
cyber incidents that are happening; their severity, impacts, and time 
lines; the apparent goals of attackers; effective response techniques; 
involved parties; and risk controls that are making a difference. 
During the course of our conversations, we asked the CIDAWG 
participants to flesh all this out by telling us what value each data 
category potentially brings to a better understanding of cyber 
incidents; what each one actually means and to whom; which data 
categories were the greatest priority, to which stakeholders, and why; 
and which of them are actually accessible,
    What was particularly gratifying to see was how the CIDAWG members 
came to view each data category in relation to at least 1 of the 6 
value proposition categories that they had previously identified. 
During their deliberations, they asked themselves, ``How does this 
particular data category deliver on the value that we're all seeking 
together?'' After 3 months of work, this resulted in a very compelling 
final list. While the brokers and underwriters were the first to offer 
up their ideas--they came up with 16 of their own data categories--the 
discussion did not stop there. The CISO and CSO participants identified 
their own set of 9 data categories that they believed were essential 
from a cybersecurity operations perspective. After sometimes intense 
debate and discussion, the CIDAWG completed a final list--
coincidentally, of 16 consolidated data categories--that are a priority 
for both the insurance industry and cybersecurity professional 
community alike. They include:
  <bullet> Type of Incident;
  <bullet> Severity of Incident;
  <bullet> Use of a Cyber Risk Management Framework;
  <bullet> Incident Time Line;
  <bullet> Apparent Goal(s) of Attackers;
  <bullet> Contributing Causes;
  <bullet> Specific Control Failures;
  <bullet> Assets Compromised or Affected;
  <bullet> Types of Impacts;
  <bullet> Incident Detection Techniques;
  <bullet> Incident Response Playbook;
  <bullet> Internal Skills Sufficiency;
  <bullet> Mitigation and Prevention Measures;
  <bullet> Costs;
  <bullet> Vendor Incident Report; and
  <bullet> Related (Contextual) Events.
Overcoming Obstacles
    As a next step, the CIDAWG addressed how private companies and 
other organizations could be encouraged to voluntarily share all this 
information into a repository. To prepare for this conversation, the 
CIDAWG hosted several experts who described already existing and on-
going information-sharing efforts. Our hope was that the CIDAWG would 
use these models to propose similar approaches for an anonymized cyber 
incident data repository:
  <bullet> Representatives from the Department of Defense (DoD) 
        provided a very helpful overview of some of the information-
        sharing work that is being done by Defense Industrial Base or 
        ``DIB'' companies. Specifically, DoD shared its insight into 
        how DIB companies have created a trusted information-sharing 
        environment by adopting a unique way of anonymizing data and 
        using Non-Disclosure Agreements.
  <bullet> The MITRE Corporation likewise detailed the progress of the 
        Aviation Safety Information Analysis and Sharing System--the 
        so-called ``near-miss'' database--that MITRE established and 
        runs in partnership with the aviation sector. Specifically, the 
        representative outlined the best practices MITRE had developed 
        to promote the anonymized sharing of near-miss information by 
        pilots, flight attendants, ground crews, and others to enhance 
        flight safety.
  <bullet> The Alliance for Telecommunications Industry Solutions 
        (ATIS) also shared its experiences in creating a trusted 
        environment for the confidential sharing of highly-sensitive 
        network outage information.
    In December 2015, the CIDAWG released its third white paper that 
identified 8 perceived obstacles to repository sharing and potential 
ways to overcome them, many of which had been inspired by these outside 
group briefings. The obstacles included:
  <bullet> Assuring Anonymization (prevent data from being traced back 
        to a particular contributor);
  <bullet> Ensuring Data Security (protect the repository itself from 
        breaches);
  <bullet> Cultural Challenges and Regional Differences (avoid 
        potentially skewed data);
  <bullet> Perceived Commercial Disadvantage to Participating in a 
        Repository (address concern that participation could negatively 
        impact business operations);
  <bullet> Internal Process Hurdles to Participation (find ways to work 
        through key reviewers);
  <bullet> Perceived Value of Participation (evangelize the bottom-line 
        benefits of participation);
  <bullet> Assuring Appropriate, Adequate, and Equitable Participation 
        (develop a series of benefits available only to repository 
        contributors); and
  <bullet> Technical Design Issues (make the repository easy to use).
Outcomes
    DHS and the CIDAWG are currently planning a public workshop in 
April 2016 to obtain feedback on the CIDAWG's white papers. 
Specifically, they are planning to dive into the 16 cyber incident data 
categories in order to validate them. They also plan to assemble a 
panel of experts who will offer recommendations about how a repository 
should function during any future proof of concept stage.
    While the CIDAWG will likely make a number of recommendations for 
next steps based on this input, one of them already is clear: The 
Federal Government should not actually own or operate the repository. 
While the CIDAWG members reported that they would welcome data from 
Federal agencies into a repository, they felt strongly that the private 
sector should find its own way during a future repository 
implementation stage. At the same time, however, they expressed great 
interest in DHS continuing to convene the CIDAWG and any other working 
groups to take the work to the next level.
            cybersecurity for mid-size and small businesses
    As with the CIDAWG, DHS's convening power could provide tremendous 
benefit when it comes to helping mid-size and small businesses 
struggling with their cybersecurity efforts. By some estimates, the 
cybersecurity insurance market today is growing at 30% a year. Brokers 
and underwriters alike agree that mid-size and small businesses 
represent the next cohort of clients that they need to engage in order 
to sustain that growth. While the market already offers cybersecurity 
policies geared to these enterprises, they face the same challenge as 
their larger counterparts: Managing their cyber risk well over time in 
order to qualify for meaningful coverage. Unlike those counterparts, 
however, mid-size and small businesses tend to have weaker security 
that makes them much easier to attack successfully. It likewise makes 
them a prime launching point for attacks against others. As the 
``Target'' data breach in 2013 starkly demonstrated, a cybersecurity 
failure by 1 small business--in that case, a heating, ventilation, and 
air conditioning (HVAC) vendor--can impose hundreds of millions of 
dollars in lost income and related litigation and settlement costs.
    Mid-size and small businesses are falling behind for several 
reasons. As an initial matter, most lack the budgets, expertise, staff, 
and time to adequately and consistently address their cyber risks. Many 
have concluded--wrongly--that their relative anonymity protects them 
from breaches and cyber-related business interruption events. Given 
competing business concerns, moreover, still others have simply chosen 
not to prioritize cyber risk management very highly. Mid-size and small 
businesses accordingly often fail to comply with common cybersecurity 
standards that promise real protection through the deployment of 
appropriate security infrastructure. A growing number, for example, use 
the cloud as a cost-saving measure for their transactions, 
unfortunately without strong encryption technology in place. As a 
result, these businesses represent the weakest links in the global 
supply chain, making them less attractive business partners.
    Large companies have awoken to this problem and are increasingly 
inquiring of their current and potential supply chain partners about 
the effectiveness of their cyber risk management programs. In many 
cases, the less-than-stellar answers they receive present a quandary 
that raises difficult questions:
  <bullet> How should large companies define and measure ``reasonable 
        cybersecurity'' for the mid-size and small companies with which 
        they partner?
  <bullet> Would imposing their own, potentially more costly 
        cybersecurity requirements effectively put those enterprises 
        out of business?
  <bullet> Should large companies sever business ties with mid-size and 
        small vendors and suppliers in favor of others that in reality 
        may be no more ``cyber secure''?
  <bullet> How and how often should they verify whether a mid-size or 
        small business is actually complying with cybersecurity 
        requirements over time and ``course adjusting'' their cyber 
        risk management investments in response as necessary?
  <bullet> When does the risk of transacting business with a less-than-
        secure enterprise outweigh a large company's absolute need for 
        a unique service or product that that enterprise provides?
  <bullet> Does a cyber insecure organization provide products or 
        services at such a competitive rate that a larger company 
        should continue to take a chance through continued partnership?
    Part of the answer to these questions is that cybersecurity in 
today's hyper-connected world is not like the television game shows 
``Weakest Link'' or ``Survivor'' where mid-size and small businesses 
should somehow be eliminated or voted off the island automatically 
because they suffer a breach or other damaging cyber event. The fact of 
the matter is that all businesses--large, mid-size, and small--are 
linked through the supply chain. They all are on the same island. 
Accordingly, they need to work with each other to survive and thrive in 
today's fast-evolving cyber risk environment. Cybersecurity 
collaboration among these enterprises has never been more essential.
    DHS should consider convening an on-going conversation focused on 
this topic. The CIDAWG provides an excellent model for how different 
cybersecurity stakeholders--brokers, underwriters, CISOs, CSOs, and 
other cybersecurity professionals--can be drawn together to 
confidentially discuss shared cyber incident data and analysis 
requirements. A similarly-structured dialogue could focus large, mid-
size, and small business attention on the specific approaches and 
support structures needed to advance the cybersecurity performance of 
all partners across the supply chain.
    Brokers and underwriters would have particularly insightful 
perspectives to share on this topic given their growing interest in 
encouraging better cybersecurity among the mid-size and small 
businesses that will comprise a sizable portion of their future client 
base. A new working group could assess, for example, how more effective 
cybersecurity collaboration among all supply chain partners--through 
initiatives like cybersecurity expert exchanges, best-practice 
knowledge sharing, compliance automation, and coordination of 
cybersecurity investments--might help establish mid-size and small 
businesses as more attractive insurance risks. As brokers and 
underwriters learn more about which cyber risk controls work for larger 
companies, they could become a powerful voice regarding which ones 
should be prioritized and adapted to the needs of the vendor and 
supplier community. Over time, the group's recommendations could be 
developed, shared, and updated through a standing private-public 
partnership effort dedicated to this issue.
    Thank you. I am happy to answer any questions you may have.

    Mr. Ratcliffe. Thank you, Mr. Finan. I now recognize myself 
for 5 minutes of questions.
    Mr. McCabe, I want to start with you. You know, in having 
this hearing and looking at the cyber insurance market more 
broadly, as I've talked about, I want to get to a point where 
we see a permeation of the market where cyber insurance becomes 
commonplace. I'm hopeful that, in the future, we get to the 
point that Mr. Finan was just making, where any small business 
who sells their products on-line through a public-basing 
website would be able to buy appropriate and effective cyber 
insurance.
    From your perspective, where you are at Marsh, can you see 
that happening, and if so, what factors or changes have to take 
place for us to get there?
    Mr. McCabe. So as I said in my testimony, the takeup rate 
increases over the last 3 years have been very healthy double-
digit takeup rates. So I think that what we have here is a very 
strong growing market. I absolutely believe that this is going 
to become a common coverage for each company to carry.
    I think probably one of the limitations right now is that 
security dollars are always finite. You have companies that are 
assessing, well, do I spend another dollar on a technical 
solution, or do I put that dollar towards insurance? Quite 
frankly, I think we often face a culture where companies would 
prefer technical solutions. But over time we discovered that 
there is no silver bullet and that there is always going to be 
some residual risk, despite how strong your practices are.
    So I think that is what is really driving insurance as a 
product today, and I think it is going to continue to grow.
    Mr. Ratcliffe. Thank you.
    Commissioner Hamm, in your testimony, you talked about the 
lack of actuarial data. What that led to, I believe you said, 
was that in cyber we see more customized policies, and because 
they're more customized, they're more costly. Can you speak to 
how additional cyber incident data could be leveraged by 
insurance commissioners like you? I mean, does that lead to 
more diverse cyber products?
    Mr. Hamm. So to begin, to me, where that actuarial data is 
primarily going to be used is by the industry itself to get 
more of a comfort level in coming up with products, developing 
those products. Then as they do that, those products would then 
be submitted to State insurance departments to review the rates 
and forms. So if those are based on better actuarial data, 
there is more of a likelihood that once they reach State 
departments of insurance, that those products will then be 
approved and then hit the market. So that would probably be my 
answer to your question there.
    I would say, though, I want to make sure and highlight, 
what you said in your opening statement was spot on. This 
market is in its infancy, and it is going to take decades 
before you get predictably to a fully mature and developed 
market. So what this market really needs is time, patience, and 
support, and support from folks like you, folks like me as a 
regulator, to help with that actuarial data piece so that the 
market can grow organically over time. Thank you.
    Mr. Ratcliffe. Thank you. I appreciate the comments.
    To that point, about aggregating data, I want to shift to 
you, Mr. Nutkis, and ask you, with respect to the ISAO model, 
when it comes to aggregating cyber incident data, what are the 
aspects of it from your perspective that can facilitate this 
process, if it can?
    Mr. Nutkis. Sure. So we see the ISAO model having a lot of 
potential to support both the aggregation of data, but then 
also the ability to link the cyber threats that are coming in 
through the ISAO through threat catalogues to the bolstering of 
the controls framework itself. So it is another feed, as the 
actual data is, into strengthening the controls, which 
therefore the organizations then have a better security posture 
and, hopefully, less residual risk.
    Mr. Ratcliffe. Okay. Thank you. Have your members found 
that applying for cyber insurance, has it caused them to 
bolster their cybersecurity standards? Is that an assumption we 
can state?
    Mr. Nutkis. So I think what our members have found is that 
cyber insurance has become very, very expensive, a lot more 
expensive than it was in the past, and that they are, as I 
think was mentioned, they are looking at ways to figure out 
where they should invest the dollars they have. They have a 
pool of dollars. I think what we have demonstrated is, is that 
if, in fact, you make good decisions on your cyber controls, 
you can reduce your cyber premiums, and therefore you have 
better cyber resilience, and you still get cyber insurance. 
That's the behavior I think we're trying to drive to, which is 
getting people to focus on really minimizing residual risk and 
finding ways to more cost effectively do that.
    Mr. Ratcliffe. Thank you. My time has expired. I'm hoping 
maybe we will do another round of questions. But I will now 
recognize the Ranking Member for his questions.
    Mr. Richmond. Thank you, Mr. Chairman. I will just pick up 
where you left off. Mr. Finan, I think in your testimony you 
talked about comparing it to a building fire and fire 
suppression devices. But I will tell you, as a person who went 
through Katrina and Rita, the two big hurricanes in Louisiana, 
after those hurricanes, we as a legislature went in and said, 
you know what, maybe we need to reexamine our building codes. 
We need to make sure that we require people to build homes that 
can withstand winds of X, and da, da, da.
    So part of it, I guess, seeps into what we would consider 
risk culture. So I guess that, you know, as we talk about you 
all identifying companies as they examine their enterprise-wide 
risk, the risk of a cyber attack is low on their priority 
analysis. How do we or does the insurance change not only 
behavior but standards across the whole potential clientele for 
cyber insurance?
    Mr. Finan. Thank you, Congressman. I think it does. One of 
the discoveries that we made during the CIDAWG conversations, 
and even in the prior workshops that we held, is that a lot of 
this is a cultural problem. You have boards of directors and 
senior leaders that are very comfortable with traditional 
business risks. They can range from workplace violence to 
competition. Cyber risk unfortunately, even in some very large 
companies today, have been relegated to sort of the IT 
department. Frankly, those aren't people that often talk with 
one another.
    The CISOs and other cybersecurity professionals that we 
were engaging were having a very hard time breaking through. 
How did they express what they knew in business terms, chiefly, 
the financial impact of a cyber event, and the reputational 
damage to a company that could result if a breach or a 
vulnerability leading to a breach wasn't properly addressed 
beforehand?
    I think insurance, though, plays an incredibly valuable 
bridging role in that the boards of directors and chief risk 
officers and CFOs understand what insurance is about, and they 
see the business benefit to it. CISOs are increasingly seeing 
it as an avenue to express what they know. One of the great 
things about the CIDAWG was that we were able to bring the 
insurance industry together with a lot of cybersecurity 
professionals who wouldn't again normally speak to one another, 
but they started to understand what each other's concerns were, 
the underwriters and brokers certainly wanting to sell an 
insurance product but also not wanting to take on too much risk 
by overextending the policies that they were offering. The 
technical expertise of a CISO, once you combine those, you're 
really addressing both sides of the same coin.
    So I think one of the outputs of the CIDAWG effort is that 
you have the insurance industry and the cybersecurity 
professional community more in sync and speaking together, 
using the same vocabulary to express that business risk that is 
cyber risk. So I see insurance as a vehicle to really make 
cyber risk more of an enterprise risk management problem, and 
it is something that I think should be strongly encouraged.
    Mr. Richmond. I guess another part of what I heard today 
was the cost and whether, you know, we can--I guess in my 
world, I would say actuarially sound. If the actuarially sound 
part is something that we focus on, I guess my question would 
be, for companies that have not invested in their 
cybersecurity, their information technology, and all those 
things to make their company stronger to fend off a cyber 
attack, is the insurance affordable? For companies who do that 
and invest in it, is the insurance affordable?
    So I guess my question is: Is this something that small 
businesses would be able to afford, and is it something that 
our large businesses can afford? Probably Mr. McCabe or Mr. 
Hamm.
    Mr. McCabe. So cyber insurance is made available to every 
size of business. We segment our brokerage depending on the 
revenues of the clients, and we have a specific group that are 
specifically concentrating on small and mid-size business. You 
know, I would estimate that the takeup for small and mid-size 
businesses on cyber insurance is somewhere around 20 percent. 
That lags behind larger organizations that have more than a 
billion dollars in revenue, but still, a very healthy takeup 
and still growing rapidly.
    As far as the moral hazard issue, I mean, if a company is 
not investing in their basic security, I would imagine that 
they are most likely not going to invest in the cyber insurance 
aspect of it either. I don't think that in the cyber insurance 
industry, I don't think that the moral hazard problem is really 
applicable. I mean, and that would be in comparison to, well, I 
have fire insurance so I am going to leave greasy rags around 
the house and I am going to leave highly flammable foods next 
to them because, you know, I have my house secured with 
insurance now.
    I mean, nobody knows how big the breach is going to be, and 
nobody knows what the outcome of a cyber breach might be. 
Executives could lose their job. You could lose the entire 
shop. You know, potentially an entire company could go down 
from a cyber breach. That is why it really does need, as has 
been spoken on this panel previously, enterprise risk 
management, because this is one of those risks that can take an 
evenly sailing ship and knock it right off course. I think that 
cyber insurance is a piece of the puzzle that supports the 
other aspects of risk management.
    Mr. Richmond. Thank you. I yield back.
    Mr. Ratcliffe. I thank the gentleman.
    The Chairman now recognizes the gentleman from 
Pennsylvania, General Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. McCabe, I am sorry I had missed the opening part of 
your testimony, so I don't want to rehash stuff that has 
already been gone over, but your last comments kind of piqued 
my curiosity. I am a guy that started a business in my mom's 
garage. Right. That was a long time ago, and we weren't so 
concerned about this at the time. But did you say that there 
are policies for every level of business, and at the smaller 
level they are based almost solely on the business's income? I 
just want to kind of make sure I understand what you said 
there.
    Mr. McCabe. So premiums are always going to be tied to the 
sector of the business----
    Mr. Perry. Right.
    Mr. McCabe [continuing]. The revenues of the business, and 
the security practices. Those are probably the largest 3 
determinatives of what a premium is going to be. Yes, I mean 
for me, you know, probably if I am involved with putting a 
program in place, the limit of a policy is typically going to 
be for $10 million for the first primary sold. Right? That is 
not going to be true for every company. Smaller companies can 
get million-dollar, much smaller policies.
    Mr. Perry. Can you give me an idea? You want a million-
dollar policy, as a guy that ran a business, in the scope of 
everything else, plant and equipment and employees, and all the 
other products that you got. What are we talking about? Is it a 
6-month premium? Is it an annual deal?
    Mr. McCabe. It is an annual deal.
    Mr. Perry. Give me some idea.
    Mr. McCabe. To tell you the truth, I am going to be more 
solid on premiums for much larger businesses because that is 
the class that I handle. But you do have to remember, even from 
your question, it is a wide-open question because for the 
business that you are running, well, how big is your digital 
footprint? How on-line are you? How much do you rely on on-line 
presence to conduct your business? What is the manner of your 
business? Are you collecting health data? Are you collecting--
--
    Mr. Perry. I understand the risk exposure, and I am kind of 
asking you how long is the string. But if you could, at some 
point after the fact----
    Mr. McCabe. Absolutely.
    Mr. Perry [continuing]. Give us some kind of idea, based on 
some of that criteria, what businesses are looking at just, you 
know, so we can kind of be in the game on that.
    I want to move on a little bit. Mr. Hamm, how do we ensure 
these policies keep up with something as evolving as this? I 
mean, you know, I think about upgrades. I used to do P and C 
limits, right. So when you upgrade, when you put airbags in, or 
you do all these safety systems of an industry moving towards a 
certain direction, or sprinklers or whatever, this industry 
involves bad actors that are moving in a nonlinear fashion. 
They don't announce their intention, and so you don't know what 
your risk is day-to-day. How do we keep up?
    Do you have any--that almost sounds like an unanswerable 
question, too, but you're in the position to have to answer.
    Mr. Hamm. I'll do the best I can to answer it. To begin 
with, because this line of insurance is still in its infancy, 
we are basically at a point where if you have seen one 
cybersecurity policy, you have seen one cybersecurity policy. 
Right? So my colleagues and I, and there are 11,500 of us in 
State insurance departments across the country, we are busy 
reviewing the rates and forms that are coming in from companies 
looking to sell these sorts of products, and you have about 4 
or 5 dozen of those companies out there selling these.
    So we are making sure that from a standpoint of a 
regulator, that the products that are actually hitting the 
market are complying with State laws in the 50 States. In 
addition to that, we are reviewing those companies to make sure 
that they are financially sound so that they will be there to 
pay claims when they come due. Because the only way this market 
is going to go from infancy to fully developed is if there is a 
comfort level by individuals and businesses and Governmental 
entities that what is actually growing and developing in this 
country, in terms of a cyber insurance market, is actually 
going to be there for the long haul.
    Mr. Perry. So that speaks to the lawfulness or, you know, 
complying and comporting with what you said the rules and 
requirements----
    Mr. Hamm. Right.
    Mr. Perry [continuing]. And I guess to soundness of the 
institution. But it doesn't necessarily get to the issue of an 
ever-changing landscape from an actuarial standpoint, from a 
risk assessment standpoint.
    Mr. Hamm. Which is a big part of why this market is 
developing. Even though it is developing quickly, in some ways 
it is developing slowly, because they need more and more data 
in order to answer the question you are asking.
    Mr. Perry. So Mr. Nutkis talked about this a little bit, 
and maybe the question should be for him, but I want to stay on 
you a little bit. So who should determine the standards? I am 
not a big Federal Government guy. I know I am sitting in the 
place, but who is determining the standard? If it is the 
insurance industry, is the fox guarding the henhouse? Am I 
going to be required to report? Is the insurance company going 
to--you know, the insurance company that has my policy is going 
to want to know my risk exposure. How do we determine, and 
should we be determining, the greater risk exposure? I mean, 
one thing begets another.
    I know there is a whole lot of questions there, but----
    Mr. Hamm. Right.
    Mr. Perry. Where is the repository of all this information, 
and how do you safeguard it? I mean, it is different than 
accident crash data or something like that. Right? So how do we 
do this for this?
    Mr. Hamm. So I am going to do the best I can to answer that 
question. From my perch as a regulator, I don't really much 
care where the repository of that data is. Okay? I don't care 
if it is some arm of the Federal Government, if it is some 
private entity. That doesn't matter to me. What matters is that 
that data that is actually being gathered is useful, okay, and 
it is being shared with me as a regulator so I can do my job.
    Mr. Perry. But as a regulator, and it is a guy that this is 
your business, this is your livelihood, your passion, your 
expertise, what is your recommendation? Do you want another 
Federal program?
    Mr. Hamm. No.
    Mr. Perry. Okay. All right. That's all I needed to do hear. 
Thank you.
    Mr. Chairman, I yield back.
    Mr. Hamm. Thank you for the lifeline.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes the gentleman from Rhode Island, 
the Chairman of the House Cyber Caucus, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing. I want to thank our witnesses for 
being here today and deeply appreciate your work with DHS and 
on this issue, in general.
    So we have come a long way since I first started on the 
cybersecurity issue back in 2007. We have certainly raised 
awareness. We have come a long way in getting everybody, for 
example, in the National security apparatus from the President 
on down, to understand how challenging and difficult 
cybersecurity is, how important it is to the country, how 
vulnerable we are in many ways, and very dependent on cyber-
related issues.
    Now, of course, what do we do about it? There is a variety 
of tasks that we need to take, that we are taking. Some of it 
will come through legislation. Others are going to come through 
regulation. Others are going to come from this public-private 
partnership certainly, which is going to be vital because 
Government nor private sector can do this independently on its 
own.
    Also a role for the FCC. I have met with FCC commissioners 
and have written several times to the chair of the FCC, and 
they are moving in the direction doing more in this space as 
well. The insurance industry also, I believe, has a critical 
role to play here. I have met with some of the largest insurers 
in the country, both to encourage them to move more into this 
space, but also to hear from them and clearly see what they are 
doing in this space. They are now writing policies that are 
more reflective of the risks that companies face in this area.
    Clearly, if you have 2 companies, and 1 is investing 
heavily in cybersecurity protections and doing everything they 
can to protect customer data and prevent the consequences of a 
cyber attack, the policy should be written to reflect that. 
Those that are doing very minimal amount, then the policy 
should be written and priced accordingly as well. So I think 
this is an important discussion.
    So, Mr. Finan, I found your testimony very insightful. I 
deeply appreciate your work with DHS and thank you for your 
commitment to public service. I am wondering if you can clarify 
a few things for me. I am certainly very fond of the NIST 
cybersecurity framework, and I fully understand the importance 
of having a risk-based approach to handling cybersecurity 
risks.
    That said, as you indicated in your testimony, current 
insurance offerings are not typically tailored to liabilities 
we tend to focus on in this committee, such as third-party harm 
due to an attack on an industrial control system. So, again, I 
fully recognize the value of raising the cybersecurity floor, 
but I just wanted to make sure I understood your testimony. Did 
I get that about right?
    Mr. Finan. Yes, I think so. Specifically, to the NIST 
cybersecurity framework, Congressman, the underwriting 
community especially has been very supportive of it because it 
gave a vocabulary and an approach for brokers and underwriters 
to discuss cyber risk in a way that everyone was comfortable. 
You didn't have to be a technical expert. I think the jury is 
still out on what the ultimate impact might be of the framework 
because they want to see how usage translates to fewer losses 
or less severe losses. So I think that there is a tremendous 
potential, but they are taking a wait-and-see approach. I think 
NIST is working and engaging with the insurance industry to see 
where it may head next.
    Mr. Langevin. Okay. Thank you for that. In that case, is it 
possible that the floor we are raising is focused on business 
risk, for example, to a financial system, rather than on a risk 
relating to operational technology, since they are unlikely to 
be insured against?
    Mr. Finan. Yes. I think insurance can have that floor-
raising impact. The C-suite understands the benefit of 
cybersecurity insurance and insurance base, generally. They see 
it through business terms, and they see it as an opportunity to 
really make that hard decision between, what Mr. McCabe was 
talking about, do you spend the last dollar on a technical 
solution, or do you transfer the risk through insurance? I 
think it is engendering some very healthy conversation between 
and among chief risk officers and other senior officials within 
companies with their cybersecurity teams. It is bridging that 
cultural divide that still remains, for most companies, but it 
is a vehicle to finally have that conversation, and I think 
that is healthy.
    I think they are figuring it out, about what controls 
actually deliver value. That is going to be a long-term and on-
going discussion. But insurance is a good umbrella under which 
to have it.
    Mr. Langevin. One other follow-up on this line of 
questioning. Is there a widely-accepted definition of 
cybersecurity incident that you found, at least among critical 
manufacturers?
    Mr. Finan. Not that we came across, and I think it is 
because of the newness. People in the industrial control system 
space are very concerned about business interruption, obviously 
the physical damage that could result to critical 
infrastructure, if a hacker were to get in and have that 
intent. But because it is new to the insurance industry, as a 
concept and a potential area of coverage, they haven't really 
defined it too specifically yet. But I think that is why the 
kind of collaboration that a group like the CIDAWG was 
encouraging is something that DHS should continue, because you 
start to move toward those common definitions and vocabulary.
    Mr. Langevin. I think that would be helpful, and I am 
hoping that we are going to see us move in that kind of a 
direction and have that common understanding. I know my time 
has expired.
    Mr. Chairman, I don't know if you are going to do a second 
round, but if you are, I am going to stay. All right. I yield 
back.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes my friend, the gentleman from 
Florida, Mr. Clawson. By the way, is it too late to offer 
condolences on your Boilermakers?
    Mr. Clawson. You know, it is a yearly thing, so don't worry 
about it. When I see you dunk a breakaway, then you and I can 
talk. To be a tough guy, you have to have hit somebody at some 
point, right? Thanks for coming. If I knew it would have been a 
conversation about basketball, I would have checked your own 
credentials.
    I am okay with voluntary cyber risk information being 
shared by companies. I am all right with that. My own 
observation was that most CEOs and boards are all over this. 
They are all over this. They know that disaster is right around 
the corner, and it is not just financial interruption of 
business. It is embarrassment, and customers have a hard time 
getting over it. Moreover, a lot of us are business-to-business 
suppliers, and we don't have a lot of choice in the matter, to 
begin with. So we are part of a larger supply chain that makes 
this more complicated, and, moreover, it is an international 
supply chain.
    The final point I guess I would make is that every ERP 
implementation that I have done is unique. I wonder about an 
insurance market, I hear actuarial data, and I say, wait a 
minute, every time I did an SAP it was a little different. 
Sometimes we touched a base code; sometimes we didn't. 
Sometimes we integrated with the financials and with the 
customers; sometimes we didn't.
    So to set up data that is somewhat standardized so that an 
insurance industry can make decisions when there is no 
standardized data, I will just tell you, from my desk, I don't 
know. I don't know. I don't know if that is even practical, 
because these things are very, very customized and very, very 
unique. That is what they are, because every business is 
different. You know, I operated in 20 countries or so, you 
know, and all of them had governing bodies. Therefore, all of 
my instincts tell me, let the market catch up to itself.
    I know if I was going to buy insurance, the only person I 
would buy it from is the consultant doing my SAP or whatever it 
was, the ERP implementation. To have a third party that is not 
involved in my system, that is therefore going to decide 
whether he is going to pay me and everybody, not knowing who 
messed up on keeping, you know, everything secure, seems like a 
very difficult thing to do. So I know what I would do if I was 
going to buy insurance from one of these things, and I am 
spending 3 to 5 percent of my top line on IT every year, I 
would buy it from the guy that helps me put in the system.
    Given all that--2 minutes of talking about that--it just 
seems to me that we have to let the market catch up here. The 
less the Government is involved, the better. You just slow it 
down. The data that we collect, in order to have a standardized 
kind of approach to this, is not going to be worth a lot 
because every implementation of an IT system is unique. So I am 
worried about the whole thing that we will try to help, but we 
will actually make things different. Do you all agree with 
that? I mean, we will try to help, but we will make things more 
difficult. Do you all agree with that, or am I missing on that?
    Mr. Hamm. Yes.
    Mr. Clawson. Anybody disagree with what I just said?
    Mr. McCabe. So, of course, not disagree.
    Mr. Clawson. If you do, that is okay.
    Mr. McCabe. I would want to try and put some bones around 
what we are doing going forward. So I know for the data 
repository, I mean, there is no ``there'' there yet. It is just 
a conversation. I think it is a question of how they reach the 
ultimate solution. So to add another layer of complexity for 
everything you are talking about, I mean, this peril has been 
compared several times to fire; but, of course, we are not 
facing a fire here. We are facing an adversarial relationship 
that changes tactics and technique. So that can call into 
question just how valuable is actuarial data, if the threat is 
going to change every time you change your security.
    But, you know, one of the things that I did not mention, 
but I do want to mention, is this committee, the subcommittee 
and the committee and Chairman and this entire Congress, has 
done a lot of great work on cyber information-sharing 
legislation getting passed this year. We are going to see a lot 
more information sharing among many different ISAOs. Right?
    So if we are starting to get into this culture where we are 
doing much more information sharing, then maybe there is a way 
we can glean from that financial impact data that can lead to 
trends. That does not have to be a Federal Government solution. 
Maybe that can represent value to several different industries, 
including the insurance industry.
    Mr. Clawson. I am okay with that, if it is voluntary. But I 
do want to say to the Chairman, thank you for this. I just want 
to make sure people up here that sometimes don't understand the 
complexity of what you all are talking about, it is easy to 
come to a conclusion that we can make some sort of standardized 
impact on a moving target that is beyond complex and that we in 
Government don't understand. I just want to make sure you all 
get that point. I mean, that is my point to the group. Be 
careful on what we try to do here, or we will make a very 
difficult situation even worse because the threats are, you 
know, so difficult.
    Thank you. I yield back.
    Mr. Ratcliffe. I thank the gentleman. I'm going to open a 
second round of questions for anyone that is interested. I had 
a couple of follow-ups that I wanted to make sure we got to 
today.
    I want to come back to you, Mr. McCabe. Technical 
questions. But do insurers generally mandate certain 
prerequisites or cybersecurity efforts at all before anyone 
could be issued coverage in this space?
    Mr. McCabe. I mean, certainly it depends how we define 
efforts. But I think the question is--absolutely. You know, if 
you find out that you have an applicant who simply isn't using 
firewalls because they don't believe in them, then the 
insurance market is just simply going to walk away from them. 
From a far more practical example, take for instance retailers. 
So if you have a retailer who simply is choosing not to be 
compliant with PCI standards, it is going to be very, very 
difficult to get that particular applicant coverage.
    Take that a step further. If you have a retailer who is not 
keeping up with the technical standards, the practices that 
would have prevented breaches like Target and Home Depot back 
in 2014, and that is using end-to-end encryption, that is 
tokenizing your data so it is just transaction numbers; it is 
not the actual card numbers--if you don't have those state-of-
the-art practices, then it is going to be very, very difficult, 
if not impossible, to get that retailer coverage.
    So I think, while for most industries there is not a hard-
and-fast rule, because there isn't regulation, because it is 
very hard to regulate in this space because things change so 
quickly, but there certainly are practices that are required. 
Now, there are, of course, certain industries where there is 
heavy regulation. There is HIPAA compliance. There is FERC, 
NERC standards, CIP standards. I mean, those, of course, you 
have to comply with.
    Mr. Ratcliffe. So as a follow-up to that, and maybe, Mr. 
Hamm, you can weigh in on this as well. Are there certain 
common conditions in cyber insurance policies, or in 
limitations or exclusions to those policies, that essentially 
would undermine the effectiveness of that coverage?
    Mr. Hamm. Nothing that I have seen yet. Again, the market 
is in such an infancy stage that my colleagues and I haven't 
got to a point where we are reviewing so many different rates 
and forms that I can give you, you know, an informed answer to 
that question.
    Mr. Ratcliffe. So when we talk about assessing the solvency 
of insurance policies that cover cyber, is there a point, or at 
what point do we need to be concerned about U.S. companies 
becoming insolvent because of their inability to cover one-off 
cyber events of a great magnitude?
    Mr. Hamm. So thankfully, we are not there yet, obviously. 
That is one of the reasons why the NAIC is so interested in 
gathering very granular level data on what this market is 
looking like, not just to give us a snapshot of claims, 
premiums, losses, et cetera, but to start to tell us if there 
are any of these companies that are selling these sorts of 
products that may not fully understand the risks they are 
taking on and may not be able to pay claims when they come due.
    So that is a big part of why we are gathering that data. We 
are going to get the first batch of that here within the next 
few weeks. We would be happy to provide that to this committee, 
once we have it in a form that we can release publicly.
    Mr. Ratcliffe. So, Mr. Finan, I want to ask you a question, 
because of your experience in setting up the CIDAWG. We have 
had this conversation about standing up a data repository of 
some type. In your mind, who would be the ideal entity to house 
that?
    Mr. Finan. I am going to do it in my basement. No. It is a 
great question, Congressman. Truly, I think the CIDAWG members 
themselves are probably the best equipped to answer that. The 
CIPAC meetings that we were holding, the Critical 
Infrastructure Protection Advisory Council, we really had not 
pushed toward who should own and operate. They were very clear, 
however, that the ghost of Edward Snowden still lives, and they 
were not overly keen on the Federal Government owning and 
operating.
    However, they did feel that the Federal Government had an 
enormous role to play in terms of convening the conversation so 
they themselves could figure it out. They are also very 
interested in the Federal Government providing data about cyber 
incidents so they could start to get their underwriting 
bearings. However, there are a couple of models that are out 
there. I know the working group has talked about ISAOs as a 
potential model, ISACs as well. I know a number have been 
interested in potentially looking at FFRDCs and universities 
and similar communities.
    But the truth of the matter is, is that this is a needs and 
requirements discussion about what is the value of a 
repository? What data do you need? Ultimately, what is it going 
to get you in terms of better understanding about how to invest 
more wisely against the risk? Really, anyone could take these 
public documents and decide to build a repository. We really 
wanted to lay out the roadmap for them to do that, and I think 
the group next month will have some recommendations that are 
more specific. But it is really for anyone to read and review 
and, hopefully, engage.
    Mr. Ratcliffe. All right. Thank you very much. My time has 
expired again.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Finan, if I 
could return to you. I was intrigued by your description of the 
aviation industry's near-miss database and its possible 
application to a cybersecurity context. So I imagine that a 
better understanding of the interconnectedness of critical 
infrastructure would be essential to be able to grasp the 
consequences if an incident had been a miss in the cyber 
world--I should say had not been a miss in the cyber world.
    Does that comport with your thinking, and can you suggest 
what additional research would need to be done to adopt this 
model?
    Mr. Finan. So the near-miss repository was something that 
really captured the imagination of the working group because at 
the outset, the commercial aviation sector didn't believe that 
they could actually share very sensitive information among 
themselves to find common, you know, safety solutions. But lo 
and behold, they did. They were able to create that environment 
largely through the development of nondisclosure agreements. 
They encrypt data. They had an anonymization protocol. So we 
brought them in to come and talk to us about how they did it. 
Really, we needed to dispel the notion that a repository would 
somehow be impossible to develop.
    There were other examples as well. DOD came in and talked 
about some of their experiences with creating an anonymization 
protocol. There were other groups that, you know, sort-of 
talked about how they worked it. None was perfect, but it did 
convince folks that, hey, this is potentially doable.
    I think the main goal is that when you have a group of 
individuals that are facing a shared business problem, and 
cyber risk is certainly that, that the people who say no, and 
the fear, ultimately has to relent to some kind of sharing. So 
the recommendation was, gee, if we could do something like the 
near-miss database for the aviation sector, that would get us 
closer.
    So we had a very in-depth conversation with the organizers 
from MITRE who put that together. They, I think, will be 
participants in the workshop that DHS is hosting next month, 
really to generate ideas. Because some of this information, 
some of it is sensitive certainly, but if you can share it at a 
generic enough level, the insurance industry and the CISOs that 
joined us really felt strongly that that would be enough for 
them to get a fix on what needs to be done, and how to direct 
their budgets against cyber risk, accordingly. So I am happy to 
report that there are these models that can be adopted.
    Mr. Langevin. Very good. That is very helpful. Thank you.
    Mr. McCabe, and I certainly welcome any of the other 
panelists to chime in. Can you describe the claims 
investigation, if any, that you conduct following a 
cybersecurity incident?
    Mr. McCabe. So the broker is usually not responsible for 
claims investigation. That will be by the carrier into their 
claims or by the company itself by retaining their own counsel. 
I mean, typically what happens is there is a cyber breach, and 
the first move by the insured would be to reach out to their 
attorneys, who will coordinate with the forensics company to 
find out exactly what happened and what is the impact. Then 
based on that impact, you might have different 
responsibilities.
    If it has been a breach of personally identifiable 
information, then State law requires certain efforts, such as 
notifying, credit monitoring, and fraud restoration. Perhaps, 
you know, there is an extortion demand in which there is an 
entire different set of services that have to go in. Perhaps 
there is a business outage in which it is more a forensics 
investigation of, well, what has this company actually lost and 
what are the expenses that you have suffered as a result of 
that business outage?
    I think that that is typically how the incident response 
comes. But from an investigation into what actually happens 
during the claim, that is usually headed up by the carrier.
    Mr. Langevin. So in the part of the investigation, as the 
carrier is doing this, do they go back and look at, did the 
insured do what they said they had done in terms of complying, 
say, with NIST standards and such that, you know, obviously 
that the policy was written in such a way that the company, the 
firm, made certain representations that they raised their level 
of cybersecurity protection to X level. Is there a part of that 
investigation that does forensics to see if they actually did 
what they said they were doing?
    Mr. McCabe. Sure. Of course. Ranking Member Richmond 
brought this up in his opening statement as well, that during 
the application process, you can make representations upon 
which the underwriter will rely, and that actually becomes part 
of your application. Now, if it turns out what you represented 
is not true, that could be grounds for denying the claim. That 
is really one of the things that incentivizes the better 
practices. You have to let the rubber meet the road on how you 
are practicing security. You can't just get the insurance based 
on a bad-faith application.
    Mr. Langevin. Very good. Okay. Thank you all very much. 
Unless there is anything else from the panel on that particular 
topic?
    Okay. I yield back.
    Thank you, Mr. Chairman.
    Mr. Ratcliffe. I thank the gentleman. We will let that be 
the last word. I thank all the witnesses for your testimony 
today and the Members for all of their questions. The Members 
of the committee may have some additional questions for any of 
you witnesses and, if so, we will ask you to respond to those 
in writing. Pursuant to Committee Rule VII(e), the hearing 
record will be held open for a period of 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
